 DEPARTMENT OF HOMELAND SECURITY

 Ofﬁce of Inspector General

   INDEPENDENT AUDITORS’ REPORT

      ON DHS’ FY 2004 FINANCIAL

            STATEMENTS





   (Excerpts from the DHS Performance

        and Accountability Report)




       Ofﬁce of Audits
OIG-05-05      December 2004
                       U.S. DEPARTMENT OF HOMELAND SECURITY

                           Performance and Accountability Report 

                    Excerpts of Appendices & Financial Information Part II
                                  Ended September 30, 2004 

                                     Table of Contents 


  Description                                                                                          Page Number

Excerpts of Appendices – Appendix B

Department of Homeland Security, Office of Inspector General
  Transmittal Letter................................................................................................ 320-323 


Independent Auditors’ Report.................................................................................. 324-330 


Appendix I – Material Weaknesses in Internal Control........................................... 331-357 


Appendix II – Other Reportable Conditions in Internal Control ............................. 358-363 


Appendix III – Compliance and Other Matters ....................................................... 364-366 


Appendix IV – Status of Prior Year Findings.......................................................... 367-370 


Management Response ....................................................................................................371

Excerpts of Financial Information Part II

Financial Statements (unaudited)............................................................................. 110-117 


Notes to Financial Statements (unaudited) .............................................................. 118-169 


Required Supplementary Information (unaudited) .................................................. 170-182 


Required Supplementary Stewardship Information (unaudited) ............................. 183-188 


Other Accompanying Information (unaudited) ...............................................................189
Appendix B – Independent Auditor’s Report




                                            320
321
322
323
324
325
326
327
328
329
330
331
332
333
334
335
336
337
338
339
340
341
342
343
344
345
346
347
348
349
350
351
352
353
354
355
356
357
358
359
360
361
362
363
364
365
366
367
368
369
370
Management’s Response to the Independent Auditor’s Report

                                                                               U.S. Department of Homeland Security
                                                                               Washington, DC 20528




MEMORANDUM FOR CLARK KENT ERVIN                                                              November 18, 2004
               INSPECTOR GENERAL
FROM:                     Andrew Maner
                          Chief Financial Officer
SUBJECT:                  Management Response – Independent Auditor’s Report on the Department of Homeland
                          Security Fiscal Year 2004 Financial Statements

On behalf of Secretary Ridge, I am responding to the Independent Auditor’s Report on the Department’s fiscal
year 2004 financial statements included in the Department’s fiscal year 2004 Performance and Accountability
Report.
We appreciate your efforts to audit the Department’s fiscal year 2004 financial statements and provide relevant
and objective recommendations on how our office can improve the Department’s financial reporting practices
including those at several of the components. Our second year of operation has been very challenging with the tri-
bureau issues and the reassignment of the legacy agencies accounting functions to U.S. Immigration and
Customs Enforcement. All of the Department’s organizational elements are to be commended for their
participation in this effort. Moreover, the accompanying report of your auditors would not have been possible
without your office’s professional assistance, technical expertise and commitment.
We concur with the ten reportable conditions that are considered to be material weaknesses as well as three
other reportable conditions contained in the auditor’s report. Corrective actions will be prepared to address these
as well as other inherited weaknesses that were still identified in the auditor’s report. We will provide your office
with new or updated action plans, as appropriate, to correct these conditions. As you are well aware, some of
these conditions can take several years to correct. The affected Department organizational elements will continue
to focus on and strive to improve their efforts to address the conditions and noncompliance issues contained in
the auditor’s report.
The ability of my office to produce financial statements and the ability of your staff to carry out the audit provide
clear evidence of the professional, cooperative working relationship between our staffs. I am confident that these
effective relationships and partnerships will result in recognizable and measurable improvements and efficiencies
in our respective reporting and auditing practices.

Sincerely,




Andrew Maner
Chief Financial Officer




                                                                                                                      371
                                     Department of Homeland Security
                                       Consolidated Balance Sheets
                                     As of September 30, 2004 and 2003
                                                (In Millions)
                                                                         2004 (unaudited)      2003
ASSETS
Intra-governmental Assets
 Fund Balance with Treasury (Notes 2,3)                                          $33,436    $27,343
 Investments (Note 4)                                                               1,625     1,546
 Advances and Prepayments (Note 5)                                                  2,886     3,054
 Other Intra-governmental Assets (Note 11)                                           481        415
Total Intra-governmental Assets                                                   38,428     32,358
Tax, Duties, and Trade Receivables, Net (Note 6)                                   1,273      1,140
 Operating Materials and Supplies, Inventory, Net (Notes 8,27)                       496      1,162
 Property, Plant and Equipment, Net (Note 10)                                       9,746     9,138
 Other (Note 11)                                                                     863        750

TOTAL ASSETS (Note 2)                                                            $50,806    $44,548

LIABILITIES
Intra-governmental Liabilities

 Due to the Treasury General Fund (Note 6)                                        $1,257     $1,209
 Accounts Payable                                                                    911        398
 Other Intra-governmental Liabilities (Note 17)                                      563        349
Total Intra-governmental Liabilities                                                2,731     1,956

 Accounts Payable                                                                   2,791     1,979
 Claims and Claims Settlement Liabilities (Note 13)                                 1,417       754
 Deferred Revenue and Advances from Others (Note 14)                                2,020     1,969
 Accrued Payroll and Benefits (Note 15)                                            2,692      2,275
 Military Service and other Retirement Benefits (Note 16)                         26,502     25,285
 Other Liabilities (Note 17)                                                       4,166      2,450
TOTAL LIABILITIES (Note 12)                                                       42,319     36,668

Commitments and Contingencies (Notes 18,19)
NET POSITION
 Unexpended Appropriations                                                        25,504     23,560
 Cumulative Results of Operations                                                (17,017)   (15,680)

TOTAL NET POSITION (Note 27)                                                        8,487     7,880
TOTAL LIABILITIES AND NET POSITION                                               $50,806    $44,548

The accompanying notes are an integral part of these statements.




                                                                                                       110
                                        Department of Homeland Security
                                       Consolidated Statement of Net Cost
                               For the Year Ended September 30, 2004 (unaudited)
                                                  (In Millions)

  Directorates and Other Components:                        Intra-governmental    With the Public     Total
  Border and Transportation Security (Note 20)
     Gross Cost                                                        $3,042            $15,453    $18,495
     Less Earned Revenue                                                 (549)            (2,359)   (2,908)
     Net Cost                                                            2,493            13,094     15,587
  Emergency Preparedness and Response
     Gross Cost                                                           690              7,220      7,910
     Less Earned Revenue                                                 (119)            (1,901)   (2,020)
     Net Cost of Continuing Operations                                    571              5,319      5,890
     Cost of Transferred Operations (Note 27)                               98                  -       98
     Net Cost                                                              669             5,319      5,988

  Information Analysis & Infrastructure Protection
     Gross Cost                                                           349                148       497
     Less Earned Revenue                                                    -                  -         -
     Net Cost                                                             349                148       497
  Science and Technology
     Gross Cost                                                           359                396       755
     Less Earned Revenue                                                    -                  -         -
     Net Cost                                                             359                396       755
  United States Coast Guard
     Gross Cost                                                          1,186             7,131      8,317
     Less Earned Revenue                                                   (90)              (67)     (157)
     Net Cost                                                            1,096             7,064      8,160
  United States Secret Service
     Gross Cost                                                           389                997      1,386
     Less Earned Revenue                                                  (18)                  -      (18)
     Net Cost                                                             371                997      1,368
  United States Citizenship and Immigration Service
     Gross Cost                                                           553              1,205      1,758
     Less Earned Revenue (Note 14)                                          15            (1,325)   (1,310)
     Net Cost                                                             568               (120)      448
  Departmental Operations and Other
     Gross Cost                                                           138                192       330
     Less Earned Revenue                                                    (5)                 -       (5)
     Net Cost                                                             133                192       325
  TOTAL NET COST (Notes 20, 21)
                                                                       $6,038            $27,090    $33,128

The accompanying notes are an integral part of these statements.




                                                                                                              111
                                         Department of Homeland Security
                                Consolidated Statement of Changes in Net Position
                                For the Year Ended September 30, 2004 (unaudited)
                                                   (In Millions)
                                                                      Cumulative Results        Unexpended
                                                                        of Operations          Appropriations



  BEGINNING BALANCES                                                            $(15,680)              $23,560

  Budgetary Financing Sources:

  Appropriations Received (Note 22)                                                        -            33,410

  Appropriations Transferred in(out) (Note 27)                                             -             (398)

  Recissions and Other Adjustments (Note 3)                                                -            (2,398)

  Appropriations Used                                                                28,670            (28,670)

  Non-exchange Revenue                                                                2,308                     -

  Donations and Forfeitures of Cash/Equivalents                                           3                     -

  Transfers in(out) without Reimbursement                                               672                     -

  Other                                                                                  73                     -

  Other Financing Sources:

  Donations and Forfeitures of Property                                                   8                     -

  Transfers in(out) Without Reimbursement (Note 27)                                   (685)                     -

  Imputed Financing from costs absorbed by others                                       742                     -

  Total Financing Sources                                                            31,791              1,944

  Net Cost of Operations                                                            (33,128)                    -

  ENDING BALANCES                                                               $(17,017)              $25,504

The accompanying notes are an integral part of these statements.




                                                                                                                    112
                              Department of Homeland Security
                       Combined Statement of Budgetary Resources
                     For the Year Ended September 30, 2004 (unaudited)
                                        (In Millions)
BUDGETARY RESOURCES

Budget Authority:

  Appropriations Received                                                     38,303
  Borrowing Authority                                                            26
  Net Transfers                                                                 757
Unobligated Balance

  Beginning of Period (Note 22)                                                8,659

  Net Transfers                                                                  41
Spending Authority from Offsetting Collections

  Earned
    Collected                                                                  6,282
    Receivable from Federal Sources                                               9
 Change in Unfilled Customer Orders
    Advance Received                                                             87
    Without Advance From Federal Sources                                        258
 Transfers from Trust Funds                                                      55
 Subtotal                                                                      6,691
Recoveries of Prior Year Obligations                                           1,982
Temporarily Not Available Pursuant to Public Law                                (17)
Permanently Not Available (Note 22)                                          (2,563)
TOTAL BUDGETARY RESOURCES                                                   $53,879

STATUS OF BUDGETARY RESOURCES
Obligations incurred:
  Direct (Note 22)                                                          $43,628
  Reimbursable (Note 22)                                                       2,880
Total Obligations incurred                                                    46,508
Unobligated Balance
  Apportioned                                                                  5,691
  Exempt from Apportionment                                                      42
Unobligated Balance Not Available                                              1,638

TOTAL STATUS OF BUDGETARY RESOURCES                                         $53,879


                                                                         (Continued)




                                                                                       113
                             Department of Homeland Security
                  Combined Statement of Budgetary Resources, Continued
                    For the Year Ended September 30, 2004 (unaudited)
                                       (In Millions)




RELATIONSHIP OF OBLIGATIONS TO OUTLAYS

Obligated Balance, Net, Beginning of Period                              $19,689

Obligated Balance Transferred, Net                                         (559)

Obligated Balance, Net, End of Period

  Accounts Receivable                                                      (437)

  Unfilled Customer Orders from Federal Sources                            (981)

  Undelivered Orders                                                      21,354

  Accounts Payable                                                         5,866

Total Obligated Balance, Net, End of Period                              $25,802

Outlays

  Disbursements                                                          $37,601

  Collections                                                            (6,424)

  Total Outlays                                                           31,177
Less: Offsetting Receipts                                                (3,779)
NET OUTLAYS                                                              $27,398


The accompanying notes are an integral part of these statements.




                                                                                   114
                                             Department of Homeland Security
                                           Consolidated Statement of Financing
                                    For the Year Ended September 30, 2004 (unaudited)
                                                       (In Millions)

Resources Used to Finance Activities:
Budgetary Resources Obligated
Obligations Incurred                                                                                     $46,508
  Less: Spending Authority from Offsetting Collections and Recoveries                                     (8,673)

Obligations Net of Offsetting Collections and Recoveries                                                  37,835
  Less: Offsetting Receipts                                                                               (3,779)

Net Obligations                                                                                            34,056


Other Resources
 Donations and Forfeiture of Property                                                                          8
 Transfers in(out) Without Reimbursement                                                                    (685)
 Imputed Financing from Costs Absorbed by Others                                                             742

Net Other Resources Used to Finance Activities                                                                65


Total Resources Used to Finance Activities                                                                 34,121


Resources Used to Finance Items Not Part of the Net Cost of Operations
Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but not yet                5,029
Provided
Resources that Fund Expenses Recognized in Prior Periods                                                     578
Budgetary Offsetting Collections and Receipts that do not Affect Net Cost of Operations:
Offsetting Receipts - Customs and Border Protection                                                       (1,182)
Other                                                                                                       (816)
Resources that Finance the Acquisition of Assets or Liquidation of Liabilities                              1,575
Other Resources or Adjustments to Net Obligated Resources that do not Affect Net Cost of Operations         (471)

Total Resources Used to Finance Items Not Part of the Net Cost of Operations                                4,713


Total Resources Used to Finance the Net Cost of Operations                                                 29,408


                                                                                                      (Continued)




                                                                                                                115
                                                 Department of Homeland Security
                                         Consolidated Statement of Financing, Continued
                                        For the Year Ended September 30, 2004 (unaudited)
                                                           (In Millions)

 Components of the Net Cost of Operations that will not Require or Generate Resources in the
 Current Period:
 Components Requiring or Generating Resources in Future Periods:

 Increase in Annual Leave Liability                                                                        202
 Increase in Environmental and Disposal Liability                                                           62
 Increase in Exchange Revenue Receivable from the Public                                                  ( 32)
 Increase in Military Service and Other Retirement benefits                                               1,217
 Other                                                                                                     919

 Total Components of Net Cost of Operations that will Require or Generate Resources in Future Periods     2,368


 Components not Requiring or Generating Resources:
 Depreciation and Amortization (Note 10)                                                                  1,011
 Revaluation of Assets or Liabilities                                                                       39
 Other                                                                                                     302

 Total components of Net Cost of Operations that will not Require or Generate Resources                   1,352


 Total Components of Net Cost of Operations That Will Not Require or Generate Resources in the            3,720
 Current Period


 Net Cost of Operations                                                                                 $33,128

The accompanying notes are an integral part of these statements.




                                                                                                              116
                         Department of Homeland Security
                          Statements of Custodial Activity
        For the Year Ended September 30, 2004 and the Seven Months Ended
                                September 30, 2003
                                   (In Millions)
                                                  2004 (unaudited)           2003


  Sources of Custodial Revenue &
  Collections
  Revenue Received
  Duties                                                     $20,966       $11,927
  User Fees                                                         924       454
  Excise Taxes                                                     2,271     1,264
  Fines and Penalties                                                57        43
  Interest                                                           11         8
  Miscellaneous                                                     225         3
  Total Cash Collections                                      24,454        13,699
  Accrual Adjustment                                                 (5)       (3)
  Total Custodial Revenue                                     24,449        13,696
  Disposition of Custodial Revenue
  Transferred to Non-Federal Entities                               182        59
  Transferred to Federal Entities                             23,287        13,082
  Refunds and Drawbacks                                             970       558
  Retained by the Department                                         10        (3)


  Total Disposition of Custodial Revenue                      24,449        13,696
  Net Custodial Activity                                             $0        $0


The accompanying notes are an integral part of these statements.




                                                                                     117
Notes to the Consolidated Financial Statements
1. Summary of Significant Accounting Policies

A. Reporting Entity

The U.S. Department of Homeland Security (DHS or Department) was established by the Homeland Security Act of
2002 (the Act), Public Law (P.L.) 107-296, dated March 25, 2002, as an executive department of the United States
government. The primary mission of DHS is to:

    •    Prevent terrorist attacks within the United States;
    •    Reduce the vulnerability of the United States to terrorism;
    •    Minimize the damage, and assist in the recovery, from terrorist attacks and natural disasters that occur
         within the United States;
    •    Carry out all functions of entities transferred to the Department, including acting as a focal point regarding
         natural and manmade crises and emergency planning;
    •    Ensure that the functions of the agencies and subdivisions within the Department that do not directly relate
         to securing the homeland are not diminished or neglected except by a specific, explicit Act of Congress;
    •    Ensure that the overall economic security of the United States is not diminished by efforts, activities, and
         programs aimed at securing the homeland; and
    •    Monitor connections between illegal drug trafficking and terrorism, coordinate efforts to sever such
         connections, and otherwise contribute to efforts to interdict illegal drug trafficking.

The Department is composed of the following organizational elements, hereafter referred to as components:

        Directorates:
           Information Analysis and Infrastructure Protection Directorate (IAIP)
           Border and Transportation Security Directorate (BTS):
               • U.S. Customs and Border Protection (CBP)
               • U.S. Immigration and Customs Enforcement (ICE), including Federal Protection
                   Service (FPS) and Federal Air Marshal Service (FAM)
               • Transportation Security Administration (TSA)
               • Federal Law Enforcement Training Center (FLETC)
               • Office of State and Local Government Coordination and Preparedness (SLGCP),
                   including former Office of Domestic Preparedness (ODP)
           Emergency Preparedness and Response Directorate (EPR)
           Science and Technology Directorate (S&T)
           Management Directorate
        Other Components:
           U.S. Coast Guard (USCG)
           U.S. Secret Service (USSS)
           U.S. Citizenship and Immigration Services (CIS)
           Office of the Inspector General (OIG)




                                                                                                                   118
Pursuant to the Department’s Fiscal Year 2004 Appropriations Act, P.L. 108-90, effective October 1, 2003, the
FAM program was realigned, within BTS, from TSA to ICE.

The FY 2004 Appropriations Act also established the DHS Working Capital Fund, as authorized by the Homeland
Security Act of 2002, for expenses and equipment necessary for maintenance and operations of administrative
services that are determined to be performed more advantageously as central services.

On July 21, 2004, the President signed the Project Bioshield Act of 2004, P.L. 108-276. The act authorized the
transfer of the Strategic National Stockpile (SNS) functions, personnel, assets, unexpended balances and
liabilities to the Department of Health and Human Services (HHS). Pursuant to Project Bioshield Act of 2004, on
August 13, 2004, the Department transferred the SNS from the DHS Directorate for Emergency Preparedness
and Response to HHS. Although the program has been transferred operations related to the SNS activities are
reflected in the Department’s Consolidated Statement of Net Cost through the date of transfer.

On January 26, 2004, the Secretary, under the statutory authority for reorganization contained in the Homeland
Security Act of 2002, notified the Congress of the Department’s intent to merge the Office of Domestic
Preparedness (ODP) with the Office of State and Local Government Coordination (SLGC) to form a new Office of
State and Local Government Coordination and Preparedness (SLGCP). In accordance with Section 872 of the
Homeland Security Act of 2002, this reorganization plan is considered to have become formalized 60 days after
the provision of the notice. The SLGCP reports directly to the Secretary and is responsible for information flow
between the Department and State and local governments, for State and local grant award functions, and for
building and sustaining the terrorism preparedness of the first responder community. In addition, select grant
award functions currently administered by EPR and TSA will be transferred to SLGCP, beginning in FY 2005.
Consequently, the Department expects to report a change of the reporting entity upon passage of the
Department’s FY 2005 appropriation bill that will affect the presentation of net cost in the Consolidated Statement
of Net Cost and related notes beginning in FY 2005.

During FY 2004, the Department accomplished a reduction in the number of financial management functions that
maintained general ledgers and underlying controls supporting the consolidation of the Department’s financial
statements. Effective October 1, 2003, U.S. ICE assumed the financial management functions previously provided
to the components for S&T and IAIP by the Departments of Justice, Commerce, Energy, Defense, Agriculture, and
the General Services Administration (GSA). In addition, CBP assumed the financial management functions
previously provided for the Agricultural Quarantine Inspection Program by the Agricultural Research, United States
Department of Agriculture (USDA). EPR assumed, for most of FY 2004, the financial management functions
previously provided for the SNS by HHS, until the SNS was transferred back to HHS as described above.

B. Basis of Accounting and Presentation

The financial statements have been prepared from the accounting records of DHS and its components in
conformity with accounting principles generally accepted in the United States, and the Office of Management and
Budget (OMB) Bulletin No. 01-09, Form and Content of Agency Financial Statements. Accounting principles
generally accepted for Federal entities are the standards prescribed by the Federal Accounting Standards
Advisory Board (FASAB), the official accounting standards-setting body of the Federal Government.

These financial statements are provided to meet the requirements of the Accountability of Tax Dollars Act of 2002.
They consist of the Consolidated Balance Sheet, the Consolidated Statement of Net Cost, the Consolidated
Statement of Changes in Net Position, the Combined Statement of Budgetary Resources, the Consolidated
Statement of Financing, and the Statement of Custodial Activity as of and for the year ended September 30, 2004.




                                                                                                             119
Comparative financial information is only presented for the Consolidated Balance Sheet and the Statement of
Custodial Activity and the related note disclosures. The Department obtained a waiver from OMB to present
comparative FY 2003 information for all other financial statements, related footnotes, and supplemental
information.

The Department’s financial statements reflect the reporting of entity activities which include appropriations
received to conduct its operations and revenue generated from those operations. They also reflect the reporting of
certain non-entity (custodial) functions it performs on behalf of the Federal Government and others (CBP has the
authority to assess and collect duties, taxes, and fees for the government of Puerto Rico and the Virgin Islands).

Transactions are recorded on an accrual and a budgetary basis of accounting. The Consolidated Balance Sheet,
the Consolidated Statement of Net Cost, and the Consolidated Statement of Changes in Net Position are reported
using the accrual basis of accounting. Under the accrual basis, revenues are recorded when earned and
expenses are recognized when a liability is incurred, regardless of when cash is exchanged. The Combined
Statement of Budgetary Resources is reported using the budgetary basis of accounting. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of Federal funds. Budgetary accounting
generally differs from the accrual basis of accounting in that obligations are recognized when new orders are
placed, contracts awarded, and services received, that will require payments during the same or future periods.
The Consolidated Statement of Financing reconciles differences between the budgetary and accrual basis of
accounting. Non-entity revenue and refunds are reported on the Statement of Custodial Activity using a modified
cash basis. With this method, revenue from cash collections are reported separately from receivable accruals,
and cash disbursements are reported separately from payable accruals.

Intragovernmental assets and liabilities result from activity with other Federal agencies. All other assets and
liabilities result from activity with parties outside the Federal government, such as domestic and foreign persons,
organizations, or governments. Intra-governmental earned revenues are collections or accruals of revenue from
other Federal agencies, and intra-governmental costs are payments or accruals to other Federal agencies.
Transactions and balances among the Department’s entities have been eliminated from the Consolidated Balance
Sheet, the Consolidated Statement of Net Cost, and the Consolidated Statement of Changes in Net Position. As
provided by OMB Bulletin No. 01-09, the Statement of Budgetary Resources is presented on a combined basis;
therefore, intra-departmental transactions and balances have not been eliminated from this statement. In
accordance with OMB Bulletin No. 01-09, intra-departmental transactions and balances have been eliminated
from all the amounts on the Consolidated Statement of Financing, except for obligations incurred and spending
authority from offsetting collections and adjustments, which are presented on a combined basis.

While these financial statements have been prepared from the books and records of the Department in
accordance with the formats prescribed by OMB, these financial statements are in addition to the financial reports
used to monitor and control budgetary resources, which are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of a sovereign entity,
that liabilities not covered by budgetary resources cannot be liquidated without the enactment of an appropriation,
and that the payment of all liabilities other than for contracts can be abrogated by the sovereign entity.




                                                                                                             120
C. Entity Revenue and Financing Sources

The Department receives the majority of funding needed to support its programs through Congressional
appropriations. The Department receives annual, multi-year, and no-year appropriations that may be used, within
statutory limits, for operating and capital expenditures. Additional funding is obtained through exchange revenues,
non-exchange revenues and transfers-in.

Appropriations are recognized as financing sources when related expenses are incurred or assets are purchased.
Revenue from reimbursable agreements is recognized when the goods or services are provided by DHS. Prices
for goods and services sold to the public are based on recovery of full cost or are set at a market price.
Reimbursable work between Federal appropriations is subject to the Economy Act (31 U.S.C. 1535) or other
statutes authorizing reimbursement. Prices for goods and services sold to other Federal government agencies are
generally limited to the recovery of direct cost. DHS recognizes as imputed financing the amount of accrued
pension and post-retirement benefit expense for current civilian employees paid on behalf of DHS by the Office of
Personnel Management (OPM), as well as amounts paid from the Treasury Judgment Fund in settlement of
claims, legal settlements, or court assessments. When costs that are identifiable to DHS and directly attributable
to DHS operations are paid for by other agencies, the Department recognizes these amounts as imputed costs.

Exchange revenues are recognized when earned, i.e., goods have been delivered or services have been
rendered. Non-exchange revenues are recognized when a specifically identifiable, legally enforceable claim to
resources arises, and to the extent that collection is probable and the amount is reasonably estimable. Non-
exchange revenues primarily consists of user fees collected by CBP to off-set certain costs of operations. Other
financing sources, such as donations and transfers of assets without reimbursements, also are recognized on the
Consolidated Statement of Changes in Net Position during the period in which the donations and transfers
occurred.

Fees for flood mitigation products and services, such as insurance provided through EPR’s National Flood
Insurance Program (NFIP) are established at rates necessary to sustain a self-supporting program. NFIP
premium revenues are recognized ratably over the life of the policies. Deferred revenue relates to unearned
premiums reserved to provide for the remaining period of insurance coverage.

CIS requires advance payments of the fees for adjudication of applications or petitions for immigration, nationality,
and citizenship benefits. Revenue associated with the application fees received is not considered earned until the
application is adjudicated.

D. Non-Entity Assets, Revenue, and Disbursements

Non-entity assets are those held by the Department but are not available for use by the Department. Non-entity
fund balance with Treasury represents funds available to pay refunds and drawback claims of duties, taxes and
fees; and other non-entity amounts to be distributed to the Treasury General Fund and other Federal agencies in
the future.

Non-entity revenue reported on the Department’s Statement of Custodial Activity includes duties, excise taxes,
and various fees collected by the CBP and the CIS that are subsequently remitted to Treasury’s General Fund or
to other Federal agencies. CBP assesses duties, taxes, and fees on goods and merchandise brought into the
United States from foreign countries. At the time importers’ merchandise is brought into the United States,
importers are required to file entry documents. Generally, within ten working days after release of the
merchandise into the United States commerce, the importer is to submit an entry document with payment of
estimated duties, taxes, and fees. Non-entity tax and trade accounts receivables and custodial revenue is




                                                                                                              121
recognized when CBP is entitled to collect duties, user fees, fines and penalties, refunds and drawback
overpayments, and interest associated with import/export activity on behalf of the Federal government that have
been established as a specifically identifiable, legally enforceable claim and remain uncollected as of year-end.
Generally, CBP records an equal and off-setting liability due to the Treasury General Fund for amounts
recognized as non-entity tax and trade receivable and custodial revenue. CBP accrues an estimate of duties,
taxes and fees related to commerce released prior to year end where receipt of payment is anticipated
subsequent to year end.

Non-entity revenue is recognized when the cash CBP is entitled to collect on behalf of the Federal government is
received. These revenue collections primarily result from current fiscal year activities. Application fees collected
by CIS for nonimmigrant petitions are recorded as deferred revenue at the time of collection.

The significant types of non-entity accounts receivable (custodial revenues as presented in the Statement of
Custodial Activity) are described below.

    •   Duties: amounts collected on imported goods and other miscellaneous taxes collected on behalf of the
        Federal government.

    •   Excise taxes: amounts collected on imported distilled spirits, wines, and tobacco products.

    •   User fees: amounts designed to maintain United States harbors, and to defray the cost of other
        miscellaneous service programs; also includes application fees collected from employers sponsoring
        nonimmigrant petitions.

    •   Fines and penalties: amounts collected for violations of laws and regulations.

    •   Refunds: amounts of duties, taxes, and fees previously paid by an importer/exporter; also includes
        drawback remittance paid when imported merchandise, for which duty was previously paid, is exported
        from the United States.

Non-entity receivables are presented net of amounts deemed uncollectible. CBP tracks and enforces payment of
estimated duties, taxes, and fees receivable by establishing a liquidated damage case that generally results in
fines and penalties receivable. A fine or penalty, including interest on past due balances, is established when a
violation of import/export law is discovered. An allowance for doubtful collections is established for substantially all
accrued fines and penalties and related interest, based on past experience in resolving disputed assessments.
CBP regulations allow importers to dispute the assessment of duties, taxes, and fees. Receivables related to
disputed assessments are not recorded until the protest period expires or a protest decision is rendered in CBP’s
favor.

Refunds and drawback of duties, taxes, and fees are recognized when payment is made. A permanent, indefinite
appropriation is used to fund the disbursement of refunds and drawbacks. Disbursements are recorded as a
decrease in the amount transferred to Treasury General Fund reported on the Statement of Custodial Activity. An
accrual adjustment is recorded on the Statement of Custodial Activity to adjust cash collections and refund
disbursements with the net increase or decrease of accrued non-entity accounts receivables, net of uncollectible
amounts, and refunds payable at year-end.




                                                                                                                 122
E. Fund Balance with Treasury, Cash, and Other Monetary Assets

Entity fund balance with Treasury amounts are primarily appropriated, revolving, trust, deposit, receipt, special,
and working capital fund amounts remaining as of fiscal year-end from which the Department is authorized to
make expenditures and pay liabilities resulting from operational activity, except as restricted by law. Except for
small amounts within EPR, the Department does not maintain cash in commercial bank accounts. Certain receipts
are processed by commercial banks for deposit into individual accounts maintained at the U.S. Treasury. The
Department's cash and other monetary assets primarily consists of undeposited collections, imprest funds, cash
used in undercover operations, cash held as evidence, and seized cash. Cash and other monetary assets are
presented as a component of other assets in the accompanying Consolidated Balance Sheets.

F. Investments, Net

Investments consist of United States government non-marketable Treasury securities and are reported at cost or
amortized cost net of premiums or discounts. The Bureau of Public Debt manages certain trust fund and revolving
fund investments for DHS, including the USCG Oil Spill Liability Trust Fund and EPR’s National Flood Insurance
Program (NFIP) revolving fund. Premiums or discounts are amortized into interest income over the terms of the
investment using the effective interest method. No provision is made for unrealized gains or losses on these
securities because it is the Department’s intent to hold investments to maturity.

G. Advances and Prepayments

Intra-governmental advances consist primarily of EPR’s disaster recovery and assistance grants to other Federal
agencies tasked with mission assignments. Advances are expensed when drawn by the grant recipients. At year-
end, the amount of grant funding unexpended by grant recipients is estimated, based on cash transactions
reported by the grant administrator used by EPR. In accordance with OMB A-110, the Department provides
advance funds to grant recipients to incur expenses related to the approved grant. Advances are made within the
amount of the total grant obligation and are intended to cover immediate cash needs.

Advances and Prepayments to the public, presented as a component of other assets in the accompanying
Consolidated Balance Sheets, consist primarily of EPR’s disaster recovery and assistance grants to states and
other grants to states. The largest category is Emergency Management Performance Grants, a consolidation of
grant programs that supports state and local emergency management staffs and operations, insurance policy
acquisition costs. Insurance policy acquisition costs include commissions incurred at policy issuance.
Commissions are amortized over the period in which the related premiums are earned, generally one to three
years.

H. Tax, Duties, and Trade Receivables, Net

Tax, Duties, and Trade Receivables consists of import duties, user fees, fines and penalties, refunds and
drawback overpayments, which have been established as a specifically identifiable, legally enforceable claim and
remain uncollected as of year-end. These receivables are net of amounts deemed uncollectible. Uncollectible
determinations consider the debtor’s payment record and willingness to pay, the probable recovery of amounts
from secondary sources, such as sureties, and an analysis of aged receivable activity.




                                                                                                           123
I.   Accounts Receivable, Net

Accounts receivable represent amounts owed to the Department by other Federal agencies and the public as the
result of the provision of goods and services to them. Intra-governmental accounts receivable results from
reimbursable work such as CIS investigative services; CBP passenger processing, trade compliance and
enforcement activities; EPR activities to safeguard communities around chemical weapon storage sites; TSA
information technology and communication services; and USCG services provided to the Department of Defense
for repairing of boats or aircraft. Intra-governmental accounts receivable are considered to be fully collectible.

Public accounts receivable consist of amounts due to CBP from commercial air and sea vessel carriers for
immigration user fees, 1931 Act overtime services, surety companies breached surety bonds; reimbursable
services and user fees collected and interest assessed by CBP; premiums and restitution due to EPR from Write
Your Own (WYO) insurance companies participating in EPR’s Federal Insurance and Mitigation Administration
flood insurance program and amounts due from insurance policy holders; amounts due to the USCG’s Oil Spill
Liability Trust Fund to recover costs incurred to respond to oil pollution incidents and to collect civil fines and
penalties from parties responsible for oil spills recognized when the claim arises; and security fees assessed by
TSA on the public and air carriers. Public accounts receivable are presented net of an allowance for doubtful
accounts, which is based on analyses of debtors’ ability to pay, specific identification of probable losses, aging
analysis of past due receivables, and historical collection experience. Interest due on past due receivables is fully
reserved until collected.

J. Credit Program Receivables, Net

EPR operates the Community Disaster Loan program to support any local government which has suffered a
substantial loss of tax and other revenues as a result of a major disaster and which demonstrates a need for
Federal financial assistance in order to perform its governmental functions. Under the program, the Department
makes direct loans to local governments who meet statutorily set eligibility criteria.

Credit program receivables consist of such loans outstanding and are recorded in other assets in the
accompanying Consolidated Balance Sheet. Loans are accounted for as receivables as funds are disbursed. For
loans obligated prior to October 1, 1991, loan principal and interest receivable are reduced by an allowance for
estimated uncollectible amounts. The allowance is estimated based on past experience and an analysis of
outstanding balances.

Post 1991 obligated direct loans and the resulting receivables are governed by the Federal Credit Reform Act of
1990 (FCRA). Under FCRA, for direct loans disbursed during a fiscal year, the corresponding receivable is
adjusted for subsidy costs. Subsidy costs are an estimated long-term cost to the United States government of its
loan programs. The subsidy cost is equal to the present value of the estimated cash outflows over the life of the
loans minus the present value of the estimated cash inflows, discounted at the applicable Treasury interest rate.
Administrative costs such as salaries and contractual fees are not included in the subsidy costs. Subsidy costs
can arise from interest rate differentials, interest subsidies, delinquencies and defaults, and other cash flows. EPR
calculates the subsidy costs based on a subsidy calculator model created by OMB.

Loans receivable are recorded at the present value of the estimated cash inflows less cash outflows. The
difference between the outstanding principal of the loans and the present value of their net cash inflows is
recorded in the allowance for subsidy, which is estimated and adjusted annually, as of year end.




                                                                                                               124
K. Operating Materials, Supplies, and Inventory, Net

Operating materials and supplies (OM&S) are primarily consumed during normal operations to service USCG and
ICE vessels and aircraft. OM&S are valued based on the weighted moving average method or on the basis of
actual prices paid. OM&S are expensed when consumed or issued for use. Excess, obsolete and unserviceable
OM&S are stated at net realizable value net of an allowance based on the condition of various asset categories,
as well as USCG and ICE’s historical experience with using or disposing of such assets.

Inventories consist primarily of USCG Supply Fund’s uniform clothing, subsistence provisions, retail stores,
general stores, technical material and fuel, and USCG Yard Fund’s supplies. Inventories on hand at year-end are
stated at cost using standard price/specific identification, last acquisition price, or weighted average cost methods,
which approximates historical cost. Revenue on inventory sales and associated cost of goods sold are recorded
when merchandise is sold to the end user. USCG’s inventory is restricted to sales within the USCG, and is not
available for sale to other government agencies.

Pursuant to the Project BioShield Act of 2004, which was approved July 21, 2004, the Department transferred the
SNS inventory and associated programs, effective August 13, 2004, from EPR to HHS. Additional information
related to the transfer can be found in Note 27.

L. Seized and Forfeited Property

Prohibited seized and forfeited property results primarily from CBP criminal investigations and passenger/cargo
processing. Seized property is not considered an asset of the Department and is not reported as such in the
Department’s financial statements; however, the Department has a stewardship responsibility until the disposition
of the seized items are determined, i.e., judicially or administratively forfeited or returned to the entity from which it
was seized. Non-prohibited seized property, including monetary instruments, real property, and tangible personal
property of others in the actual or constructive possession of DHS will be transferred to the Treasury Forfeiture
Fund and is not presented in the accompanying consolidated financial statements of DHS.

Forfeited property is property for which the title has passed to the United States government. As noted above,
non-prohibited forfeited property or currency becomes assets of the Treasury Forfeiture Fund. However,
prohibited forfeited items, such as counterfeit goods, narcotics, or firearms, are held by CBP until disposed or
destroyed. In accordance with Statement of Federal Financial Accounting Standard (SFFAS) No. 3, Accounting
for Inventory and Related Property, analyses of changes in seized and forfeited property of prohibited items are
disclosed in Note 9.

CBP will also take into custody, without risk or expense, merchandise termed “general order property,” which for
various reasons cannot legally enter into the commerce of the United States. CBP’s sole responsibility for the
general order property is to ensure the property does not enter the Nation’s commerce. If general order property
remains in CBP custody for a prescribed period of time, without payment of all estimated duties, storage, and
other charges, the property is considered unclaimed and abandoned and can be sold by CBP at public auction.
Auction sales revenue in excess of charges associated with the sale or storage of the item is remitted to the
Treasury General Fund. In some cases, CBP incurs charges prior to the sale and funds these costs from entity
appropriations. Regulations permit CBP to offset these costs of sale before returning excess amounts to
Treasury.




                                                                                                                   125
M. Property, Plant, and Equipment, Net

DHS’s property, plant, and equipment (PP&E) consists of aircraft, vessels, vehicles, land, structures, facilities,
leasehold improvements, software, information technology, and other equipment. PP&E is recorded at cost and is
depreciated using the straight line method over the estimated useful lives of the assets. In cases where historical
cost information was not maintained, PP&E is capitalized using an estimated cost based on the cost of similar
assets at the time of acquisition or the current cost of similar assets discounted for inflation since the time of
acquisition. The Department owns some of the buildings in which it operates. Other buildings are provided by the
General Services Administration (GSA), which charges rent equivalent to the commercial rental rates for similar
properties.

The multi-use heritage assets consist primarily of buildings and structures owned by CBP and USCG, and are
included in general PP&E on the Consolidated Balance Sheet. The physical quantity information for the multi-use
heritage assets is included in the Required Supplementary Stewardship Information for heritage assets.

In accordance with the FASAB Technical Bulletin 2003-1, dated June 13, 2003, and related the Department of
Treasury’s Financial Management Service’s (FMS) guidance, PP&E transferred to DHS from legacy agencies
during the seven months ended September 30, 2003, pursuant to the Homeland Security Act of 2002, were
recorded at the net book value of the transferring agency.

The Department capitalizes acquisitions of PP&E when the cost equals or exceeds an established threshold and
has a useful life of two years or more. Costs for construction projects are recorded as construction-in-progress
until completed, and are valued at actual (direct) costs, plus applied overhead and other indirect costs.
Capitalized internal use software includes the full cost, including an allocation of indirect costs incurred during the
software development stage. DHS is developing capitalization thresholds for consistent use across all
components. Until completion of such, the capitalization thresholds of the legacy agencies transferred to DHS are
maintained. The ranges of capitalization thresholds used by DHS Components, by primary asset category, are as
follows:

Asset Description                     Capitalization Threshold
Land                                  Regardless of cost to $100,000
Buildings and improvement             $25,000 to $200,000
Equipment and capital leases          $5,000 to $50,000
Software                              $200,000 to $750,000

The Department begins to recognize depreciation expense once the asset has been placed in service. Land is not
depreciated. Depreciation on buildings and equipment leased by GSA is not recognized by the Department.
Leasehold improvements are depreciated over the shorter of the term of the remaining portion of the lease, or the
useful life of the improvement. Buildings and equipment acquired under capital leases are amortized over the
lease term. Amortization of capitalized software begins on the date of acquisition if purchased, or when the
module or component has been placed in use (i.e., successfully installed and tested) if contractor or internally
developed. There are no restrictions on the use or convertibility of general PP&E.

N. Liabilities

Liabilities represent the probable and measurable future outflow or other sacrifice of resources as a result of past
transactions or events. Since the Department is a component of the United States government, a sovereign entity,




                                                                                                                 126
the Department’s liabilities cannot be liquidated without legislation that provides resources or an appropriation.
Liabilities covered by budgetary resources are those liabilities for which Congress has appropriated funds or
funding is otherwise available to pay amounts due. Liabilities not covered by budgetary or other resources
represent amounts owed in excess of available, congressionally appropriated funds or other amounts, and there
is no certainty that the appropriations will be enacted. The United States government, acting in its sovereign
capacity, can abrogate liabilities of the Department arising from other than contracts.

O. Environmental Cleanup Costs and Contingent Liabilities

The Department has responsibility to remediate its sites with environmental contamination, and is party to various
administrative proceedings, legal actions, and tort claims which may result in settlements or decisions adverse to
the Federal government. The Department has accrued a liability for future cleanup of environmental hazards
when losses are determined to be “probable”, which is generally when the Department is legally responsible for
creating the hazard or is otherwise related in such a way that the Department is legally liable to remediate the
contamination, and the cost can be estimated. These liabilities are a component of other liabilities on the
accompanying Consolidated Balance Sheets.

Contingent liabilities are liabilities where the existence or amount of the liability cannot be determined with
certainty pending the outcome of future events. The Department recognizes contingent liabilities when loss is
probable and reasonably estimable. The Department discloses contingent liabilities in the notes to the
consolidated financial statements when the conditions for liability recognition are not met and when loss from
future events is more than remote. Payments made from the Treasury Judgment Fund for settlement of DHS legal
claims and judgments are recognized as an imputed financing source in the accompanying Consolidated
Statement of Net Position.

DHS has accrued environmental liabilities where losses are determined to be probable and the amounts can be
estimated. In accordance with Federal accounting guidance, the liability for future cleanup of environmental
hazards is “probable” when the government is legally responsible for creating the hazard or is otherwise related to
it in such a way that it is legally liable to clean up the contamination.

P. Grants Liability

EPR, SLGCP (formerly ODP), and TSA award grants and cooperative agreements to Federal, state, and local
governments, universities, non-profit organizations, and private sector companies for the purpose of building
capacity to respond to disasters and emergencies, conduct research into preparedness, enhance and ensure the
security of passenger and cargo transportation by air, land, or sea, and other DHS-related activities. EPR
estimates a year-end grant accrual representing the amounts payable to grantees, using historical disbursement
patterns over a period of 20 quarters to predict unreported grantee expenditures. The SLGCP and TSA grant
liability accrual is estimated using known reported expenditures reported by grantees and the estimated daily
expenditure rate for the period subsequent to the latest grantee submission in relation to the cumulative grant
amount. Effective October 1, 2004, TSA grants activity will be transferred to SLGCP. Grants issued by TSA
through September 30, 2004 will be maintained jointly by TSA and SLGCP. Grants liabilities are combined with
accounts payable to the public in the accompanying Consolidated Balance Sheet.

Q. Claims and Claims Settlement Liabilities

EPR administers the National Flood Insurance Program (NFIP) through sale or continuation-in-force of insurance
in communities that enact and enforce appropriate flood plain management measures. Claims and claims
settlement liability represents an estimate of NFIP losses that are unpaid at the balance sheet date and is based




                                                                                                             127
on the loss and loss adjustment expense factors inherent in the NFIP insurance underwriting operations
experience and expectations. Estimation factors used by the insurance underwriting operations reflect current
case basis estimates and give effect to estimates of trends in claim severity and frequency. These estimates are
continually reviewed, and adjustments, reflected in current operations, are made as deemed necessary. Although
the insurance underwriting operations believes the liability for unpaid losses and loss adjustment expenses is
reasonable and adequate in the circumstances, the insurance underwriting operations' actual incurred losses and
loss adjustment expenses may not conform to the assumptions inherent in the estimation of the liability.
Accordingly, the ultimate settlement of losses and the related loss adjustment expenses may vary from the
amount included in the financial statements.

R. Debt and Borrowing Authority

Debt is reported within other intra-governmental liabilities and results from Treasury loans and related interest
payable to fund NFIP and Disaster Assistance Direct Loan Program (DADLP) operations. NFIP loan and interest
payments are financed by flood premiums and map collection fees. Additional funding for NFIP may be obtained
through Treasury borrowing authority of $1.5 billion. DADLP annually requests borrowing authority to cover the
principal amount of direct loans not to exceed $25 million less the subsidy due from the program account. DADLP
borrowing authority is for EPR “State Share Loans”. Borrowing authority for Community Disaster Loans is requested
on an "as needed basis”. At the end of the fiscal year, borrowing authority is reduced by the amount of any unused
portion.

S. Annual, Sick, and Other Accrued Leave

Earned annual and other vested compensatory leave is an accrued liability. The liability is reduced as leave is
taken. At year end, the balances in the accrued leave accounts are adjusted to reflect the liability at current pay
rates and leave balances, and are reported within accrued payroll and benefits in the Consolidated Balance
Sheet. Sick leave and other types of non-vested leave are not earned benefits. Accordingly, non-vested leave is
expensed when used.

T. Workers’ Compensation

A liability is recorded for actual and estimated future payments to be made for workers’ compensation pursuant to
the Federal Employees’ Compensation Act (FECA). The actual liability is presented as a component of intra-
governmental other liabilities, and the actuarial liability is presented within accrued payroll and benefits in the
accompanying Consolidated Balance Sheet. The FECA program is administered by the U.S. Department of Labor
(DOL), which initially pays valid claims and subsequently seeks reimbursement from Federal agencies employing
the claimants. Reimbursement to DOL on payments made occurs approximately two years subsequent to the
actual disbursement. Budgetary resources for this intra-governmental liability are made available to the
Department as part of its annual appropriation from Congress in the year in which the reimbursement takes place.

Additionally, a liability due to the public is recorded that includes the expected liability for death, disability, medical
and miscellaneous costs for approved compensation cases. The liability is determined using an actuarial method
that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. The Department allocates the actuarial liability to its components based on
payment history provided by DOL. The accrued liability is not covered by budgetary resources and will require
future funding.




                                                                                                                     128
U. Military Service and Other Retirement Benefits

DHS and Component Civilian Workforce Pension and Other Benefits

The Department recognizes the full annual cost of its civilian employees’ pension benefits; however, the assets of
the plan and liability associated with pension costs are recognized by the OPM rather than the Department.

Most employees of the Department hired prior to January 1, 1984, participate in the Civil Service Retirement
System (CSRS), to which the Department contributes 8.5 percent of base pay for regular CSRS employees, and
9 percent of base pay for law enforcement agents.

The majority of employees hired after December 31, 1983 are covered by the Federal Employees Retirement
System (FERS) and Social Security. For the FERS basic annuity benefit the Department contributes 10.7 percent
of base pay for regular FERS employees and 22.7 percent for law enforcement agents. A primary feature of
FERS is that it also offers a defined contribution plan to which the Department automatically contributes 1 percent
of base pay and matches employee contributions up to an additional 4 percent of base pay. The Department also
contributes the employer's Social Security matching share for FERS participants. Information regarding FERS can
be found at the following web site: http://www.tsp.gov.

Similar to CSRS and FERS, OPM rather than the Department reports the liability for future payments to retired
employees who participate in the Federal Employees Health Benefits Program and Federal Employees Group
Life Insurance Program. The Department is required to report the full annual cost of providing these other
retirement benefits (ORB) for its retired employees as well as reporting contributions made for active employees.
In addition, the Department recognizes an expense and liability for other post employment benefits (OPEB), which
includes all types of benefits provided to former or inactive (but not retired) employees, their beneficiaries, and
covered dependents.

The difference between the full annual cost of CSRS or FERS retirement, ORB and OPEB benefits and the
amount paid by the Department is recorded as an imputed cost and off-setting imputed financing source in the
accompanying Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net Position, and
Consolidated Statement of Financing.

USCG – Military Retirement System Liability

The USCG Military Retirement System (MRS) is a defined benefit plan that covers both retirement pay and health
care benefits for all active duty and reserve military members of the USCG. The plan is funded through annual
appropriations and, as such, is a pay-as-you-go system. The unfunded accrued liability reported on the
accompanying Consolidated Balance Sheet is actuarially determined by subtracting the present value of future
employer/employee contributions, as well as any plan assets, from the present value of the future cost of benefits.
Current period expense is computed using the aggregate entry age normal actuarial cost method.

A portion of the accrued MRS liability is for the health care of non-Medicare eligible retirees/survivors. Effective
October 1, 2002, USCG transferred its liability for the health care of Medicare eligible retirees/survivors to the
Department of Defense (DoD) Medicare-Eligible Retiree Health Care Fund (the Fund), which was established in
order to finance the health care benefits for the Medicare-eligible beneficiaries of all DoD and non-DoD uniformed
services. DoD is the administrative entity and in accordance with SFFAS No. 5, is required to recognize the
liability on the Fund’s financial statements. The USCG makes monthly payments to the Fund for current active
duty members. Benefits for USCG members who retired prior to the establishment of the Fund are provided by




                                                                                                              129
payments from the Treasury to the Fund. The future cost and liability of the Fund is determined using claim
factors and claims cost data developed by the DoD, adjusted for USCG retiree and actual claims experience. The
USCG uses the current year actual costs to project costs for all future years.

USCG – Post-employment Military Travel Benefit

USCG uniformed service members are entitled to travel and transportation allowances for travel performed or to
be performed under orders, without regard to the comparative costs of the various modes of transportation. These
allowances, upon separation from the service, include the temporary disability retired list placement, release from
active duty, retirement, and entitlement for travel from the member’s last duty station to home or the place from
which the member was called or ordered to active duty, whether or not the member is or will be an active member
of a uniformed service at the time the travel is or will be performed.

USCG recognizes an expense and a liability for this OPEB when a future outflow or other sacrifice of resources is
probable and measurable on the basis of events occurring on or before the reporting date. The OPEB liability is
measured at the present value of future payments, which requires the USCG to estimate the amount and timing of
future payments, and to discount the future outflow using the Treasury borrowing rate for securities of similar
maturity to the period over which the payments are made.

USSS – Uniformed Division and Special Agent Pension Liability

The District of Columbia Police and Fireman’s Retirement System (the DC Pension Plan) is a defined benefit plan
that covers USSS Uniformed Division and Special Agents. The DC Pension Plan makes benefit payments to
retirees and/or their beneficiaries. The USSS receives permanent, indefinite appropriations each year to pay the
excess of benefit payments over salary deductions. The DC Pension Plan is funded through annual
appropriations and, as such, is a pay-as-you-go system. The unfunded accrued liability reported on the
accompanying Consolidated Balance Sheet is actuarially determined by subtracting the present value of future
employer/employee contributions, as well as any plan assets, from the present value of future cost of benefits.
Current period expense is computed using the aggregate cost method.

V. Use of Estimates

Management has made certain estimates and assumptions in the reporting of assets, liabilities, revenues,
expenses, obligations incurred, spending authority from offsetting collections, and note disclosures in the
consolidated financial statements. Actual results could differ from these estimates. Significant estimates include:
the allocation of trust fund receipts, year-end accruals of accounts and grants payable, contingent legal and
environmental liabilities, accrued workers’ compensation, allowance for doubtful accounts receivable, allowances
for obsolete inventory and OM&S balances, allocations of indirect common costs to construction-in-progress,
subsidy re-estimates, deferred revenues, NFIP claims and settlements, MRS and other pension, retirement, and
post-retirement benefit assumptions, and certain non-entity receivables and payables related to custodial
activities. Certain accounts payable balances are estimated based on current payments that relate to prior periods
or a current assessment of services/products received but not yet paid.

W. Taxes

The Department, as a Federal agency, is not subject to Federal, state or local income taxes and accordingly, no
provision for income taxes has been recorded in the accompanying consolidated financial statements.




                                                                                                             130
X. Reclassifications

Certain 2003 balances have been reclassified for consistent disclosures with 2004 balances.

2. Non-Entity Assets

Non-entity assets at September 30 consisted of the following (in millions):

Intra-governmental:                                     2004
                                                                         2003
                                                     (unaudited)
Fund Balance with Treasury                                $3,342          $1,720
Receivables Due From Treasury (note 11)                      170               109
Total Intra-governmental                                   3,512              1,829


Public:
Tax, Duties, and Trade Receivables, Net (note 6)           1,273              1,140
Other                                                          36               64
Total Public                                               1,309              1,204


Total Non-Entity Assets                                    4,821              3,033
Total Entity Assets                                       45,985          41,515
Total Assets                                             $50,806         $44,548


Non-entity fund balance with Treasury consists of special and deposit funds, permanent appropriations, and
miscellaneous receipts that are available to pay non-entity liabilities presented as a component of other liabilities
on the Consolidated Balance Sheet. Non-entity fund balance with Treasury at September 30, 2004 and 2003,
includes (in deposit fund) approximately $2.9 billion (unaudited) and $1.4 billion of duties collected by CBP on
imports of Canadian softwood lumber and $375 million (unaudited) and $247 million (in special fund) Injured
Domestic Industries (IDI) at September 30, 2004 and 2003, respectively. These assets off-set accrued liabilities at
September 30, 2004 and 2003 (see note 17). Non-entity fund balance with Treasury also consists of trust-related
assets primarily from cash held on behalf of obligors and fees, fines and penalties collected that are managed by
CIS.

Non-entity receivables due from Treasury represent an estimate of duty, tax and/or fee refunds and drawbacks
that will be reimbursed by a permanent and indefinite appropriation account and will be used to pay estimated
duty refunds and drawbacks payable of $132 million (unaudited) and $98 million at September 30, 2004 and
2003, respectively (see note 17). Duties and taxes receivable from public represents amounts due from importers
for goods and merchandise imported to the United States, and upon collection, will be available to pay the
accrued intragovernmental liability due to the Treasury General Fund, which equaled $1.3 billion (unaudited) and
$1.2 billion at September 30, 2004 and 2003, respectively.




                                                                                                              131
3. Fund Balance with Treasury

A. Fund Balance with Treasury

Fund Balance with Treasury at September 30 consisted of the following (in millions):

                                                         2004              2003
                                                      (unaudited)
Appropriated Funds                                        $27,587         $23,645
Trust Funds                                                     48              74
Revolving, Liquidating, and Working Capital                    435             237
Funds
Special Funds                                                2,131           1,709
Deposit Funds                                                3,235           1,678
Total Fund Balance with Treasury                          $33,436         $27,343


Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of DHS and its
components. Appropriated funds include clearing funds totaling a negative $457 million and $316 million at
September 30, 2004 and 2003, respectively, which represent reconciling differences with Treasury balances.

Trust funds are both receipt accounts and one or more expenditure accounts that are designated by law as a trust
fund. Trust fund receipts are used for specific purposes, generally to offset the cost of expanding border and port
enforcement activities, oil spill related claims and activities, or to hold CIS bond receipts.

Revolving funds are used for continuing cycles of business-like activity, in which the fund charges for the sale of
products or services and uses the proceeds to finance its spending, usually without requirement for annual
appropriations. The working capital fund is a fee-for-service fund established to support operations of DHS
component bureaus. Also included are the liquidating and financing funds for credit reform and the national flood
insurance fund of $321 million and $84 million at September 30, 2004 and 2003, respectively.

Special funds are receipts and/or off-setting receipt funds earmarked for specific purposes including the
disbursement of non-entity monies received in connection with antidumping and countervailing duty orders and
findings to qualifying IDI of $375 million and $247 million at September 30, 2004 and 2003, respectively. DHS
also has entity special funds for immigration user fees of $154 million and $89 million at September 30, 2004 and
2003, respectively; CBP user fees of $730 million (unaudited) and $640 million at September 30, 2004 and 2003,
respectively; immigration examination fees of $715 and $470 million at September 30, 2004 and 2003
respectively; and inspection fees, flood map modernization subsidy, off-set, and refund transfers.

Deposit funds represent amounts received as an advance that are not accompanied by an order and include non-
entity collections that do not belong to the Federal government and for which final disposition has not been
determined at year end, including $2.9 billion and $1.4 billion of duties collected on imports of Canadian softwood
lumber at September 30, 2004 and 2003, respectively (see notes 2 and 17).




                                                                                                              132
B. Status of Fund Balance with Treasury

The status of fund balance with Treasury at September 30 consisted of the following (in millions):

Unobligated Balances:                                  2004             2003
                                                    (unaudited)
  Available                                              $5,718          $6,657
  Unavailable                                              1,638          2,888
Obligated Balance Not Yet Disbursed                      25,802          19,642
Subtotal                                                 33,158          29,187
Adjustments for:
 Receipt, Clearing, and Deposit Funds                      3,466          1,366
 Borrowing Authority                                     (1,500)        (1,608)
 Investments                                             (1,612)        (1,537)
 Receivable Transfers and Imprest Fund                      (76)            (65)
Total Status of Fund Balance with Treasury              $33,436        $27,343


Adjustments are made to reconcile the budgetary status to fund balance with Treasury for the following reasons:
    •   Receipt, clearing and deposit funds represent amounts on deposit with Treasury that have no budget
        status at September 30, 2004 and 2003. Included in adjustments for deposit funds are restricted balances
        of $2.9 billion and $1.4 billion at September 30, 2004 and 2003, respectively, of non-entity funds, and
        receipts that are not available for obligation.
    •   Borrowing authority is in budgetary status for use by EPR for disaster relief purposes.
    •   Budgetary resources have investments included; however, the money has been moved from the Fund
        Balance with Treasury asset account to investments.
    •   Receivable transfers of currently invested balances increases the budget authority at the time the transfer
        is realized and obligations may be incurred before the actual transfer of funds.
    •   Imprest funds the money has been moved from fund balance with Treasury to imprest funds with no
        change in the budgetary status.
Portions of the unobligated balances available, unavailable and obligations balance not yet disbursed contains
CBP’s user fees account balance of $730 and $640 million (at September 30, 2004 and 2003), which is restricted
by law in its use to offset costs incurred by CBP until authority is granted through appropriations acts.

Portions of the unobligated balance unavailable includes amounts appropriated in prior fiscal years that are not
available to fund new obligations. However, it can be used for upward and downward adjustments for existing
obligations in future years.

The obligated not yet disbursed balance represents amounts designated for payment of goods and services




                                                                                                             133
ordered but not received or goods and services received but for which payment has not yet been made. Part of
this balance contains obligations from the disaster relief fund of $6.4 billion (unaudited) and $8.1 billion at
September 30, 2004 and 2003, respectively.

DHS returned to Treasury $214 million (unaudited) and $65 million (unaudited) for indefinite no-year authority;
and $2.3 billion (unaudited) and $1.5 billion in authority unavailable for obligations pursuant to public law
respectively (e.g. rescissions), during the year ended September 30, 2004 and the seven months ended
September 30, 2003, respectively; and $26 million (unaudited) in borrowing authority was returned during the year
ended September 30, 2004.


4. Investments

Investments at September 30 consisted of the following (in millions):

Type of Investment                              2004                2003
                                             (unaudited)

U.S. Treasury Securities:
 USCG – Non-Marketable, Par Value                   $839                   $965
 EPR – Non-Marketable, Market-Based                   786                  581
Total Intra-governmental Investments              $1,625                $1,546


Non-marketable, market-based investments include discounts of $13 million (unaudited) and $9 million at
September 30, 2004 and 2003 respectively; in addition, market value of investments approximates cost.

Unexpended funds in the USCG oil spill liability trust fund (oil spill fund) and the gift fund are invested by the U.S.
Treasury – Bureau of Public Debt in U.S. government securities. Interest and principal on invested balances in the
USCG’s oil spill fund are considered investment authority and are available for use by the USCG to offset the cost
of oil spill cleanup, payment of environmental claims against the fund, and for specific funding of cleanup related
operations. EPR maintains investments for the gifts and bequests fund and the NFIP. EPR investments are
restricted to Treasury bonds, bills, notes, and overnight securities. The current EPR investments portfolio consists
principally of overnight securities, which have neither market value variances nor unamortized premium or
discount.




                                                                                                                134
5. Advances and Prepayments – Intra-governmental

Intra-governmental advances and prepayments at September 30 consisted of the following (in millions):

                                                               2004
                                                                              2003
                                                            (unaudited)
Disaster Relief Fund                                            $2,718        $2,816
Other                                                              168           238
Total Intra-governmental Advances and Prepayments               $2,886        $3,054


Disaster relief fund (DRF) advances consists of EPR’s disaster assistance grants to other Federal agencies
tasked with mission assignments that support state and local emergency management staffs and operations.

Advances and prepayments made to the public are presented as a component of other assets on the
accompanying Consolidated Balance Sheets (see note 11).




                                                                                                         135
6. Tax, Duties, and Trade Receivables, Net

Tax, duties, and trade receivables at September 30 consisted of the following (in millions):

As of September 30, 2004 (unaudited):
                                                          Gross                         Total Net
Receivables Category                                 Receivables       Allowance      Receivables
Duties                                                     $1,127           ($95)          $1,032
Excise Taxes                                                   73              (2)               71
User Fees                                                      80              (1)               79
Fines/Penalties                                               798           (745)                53
Refunds and Drawback                                          180           (142)                38
Total Tax, Duties, and Trade Receivables,                  $2,258          ($985)          $1,273
Net

As of September 30, 2003:
                                                          Gross                         Total Net
Receivables Category                                 Receivables       Allowance      Receivables
Duties                                                     $1,020          ($102)              $918
Excise Taxes                                                   73              (1)              72
User Fees                                                      71              (1)              70
Fines/Penalties                                               694           (621)               73
Refunds and Drawback                                           36            (29)                7
Total Tax, Duties, and Trade Receivables,                  $1,894          ($754)          $1,140
Net

When a violation of import/export law is discovered, a fine or penalty is established, typically for the full value of
the merchandise. After receiving the notice of assessment, the importer or surety has a period of time to either file
a petition requesting a review of the assessment or pay the assessed amount. Once a petition is received, CBP
investigates the circumstances as required by its mitigation guidelines and directives. Until this process has been
completed, CBP records an allowance on fines and penalties of approximately 94 percent (90 percent at
September 30, 2003) of the total assessment based on historical experience of fines and penalties mitigation and
collection. Duties and taxes receivable are non-entity assets for which there is an offsetting liability due to the
Treasury General Fund.




                                                                                                                136
7. Credit Program Receivables, Net

A. Summary of Direct Loans to Non-Federal Borrowers at September 30 (in millions):

                                            2004
                                                                         2003
                                         (unaudited)
                                   Loans Receivable, Net         Loans Receivable, Net

Community Disaster Loans                               $6.8                      $14.5

An analysis of loans receivable and the nature and amounts of the subsidy and administrative costs associated
with the direct loans is provided in the following sections.

B. Direct Loans Obligated Prior to FY 1992 (Present Value Method, in millions):

Direct loans obligated prior to FY1992 have been fully collected during FY 2004, and therefore no balances
remained as of September 30, 2004 (unaudited).

                                         Loans                        Allowance for      Value of Assets
                                    Receivable,      Interest          Loan Losses            Related to
At September 30, 2003:                   Gross    Receivable                                Direct Loans
Community Disaster Loans                  $.167          $.004              ($.017)               $.154


C. Direct Loans Obligated After FY 1991 (in millions):

                                         Loans                        Allowance for      Value of Assets
                                    Receivable,       Interest        Subsidy Cost            Related to
At September 30, 2004                    Gross     Receivable       (Present Value)         Direct Loans
(unaudited):
Community Disaster Loans                 $129.4          $62.5             ($185.1)                 $6.8


                                         Loans                        Allowance for      Value of Assets
                                    Receivable,       Interest        Subsidy Cost            Related to
At September 30, 2003:                   Gross     Receivable       (Present Value)         Direct Loans
Community Disaster Loans                 $130.9          $54.5             ($171.0)               $14.4




                                                                                                             137
D. Total Amount of Direct Loans Disbursed, Post-1991: None.

E. Subsidy Expense for Direct Loans by Program and Component (in millions):

    Subsidy Expense for New Direct Loans Disbursed: None

    Modifications and Reestimates (Prior reporting year): $4.5

    Total Direct Loan Subsidy Expense: None

F. Direct Loan Subsidy Rates

The direct loan subsidy rates, by component, are as follows:

                                            2004
                                                                          2003
                                         (unaudited)
                                  Community             State     Community         State
                                    Disaster           Share        Disaster       Share
                                      Loans            Loans          Loans        Loans

Interest Subsidy Cost                   2.48 %    (2.40) %          (0.84) %     (4.48) %
Default Costs                              -%             -%             -%          -%
Other                                  90.78 %         0.38 %       93.01 %       0.38 %

G. Schedule for Reconciling Subsidy Cost Allowance Balances (in millions):

                                                                                     2004
                                                                                                  2003
                                                                                  (unaudited)
Beginning Balance of the Subsidy cost allowance                                         $171       $163
Adjustments:
    (a) Loans written off                                                               (1.7)            -
    (b) Subsidy allowance amortization                                                  11.3             8
Ending balance of the subsidy cost allowance before reestimates                        180.6        171
Add subsidy reestimate by component
    (a) Technical/default reestimate                                                        4.5          -
Ending balance of the subsidy cost allowance                                          $185.1       $171




                                                                                                             138
H. 2004 Administrative Expenses (unaudited) (in millions):

Community Disaster and State Share Loans                                     $.5



8. Operating Materials, Supplies, Inventory, and Stockpile, Net (unaudited)

Operating materials and supplies (OM&S), inventory, and stockpile, net at September 30, consisted of the
following (in millions):

                                                        2004               2003
                                                     (unaudited)
OM&S
 Items Held for Use                                         $360              $417
 Items Held for Future Use                                     84                  80
 Excess, Obsolete and Unserviceable Items                       7                  10
 Less: Allowance for Losses                                    (7)             (10)
Total OM&S, Net                                               444               497

Inventory
 Inventory Purchased for Resale                                53                  58
 Less: Allowance for Losses                                    (1)                 (1)
Total Inventory, Net                                           52                  57

Strategic National Stockpile (note 27)                           -              608

Total OM&S, Inventory, and Stockpile, Net                   $496             $1,162


The Strategic National Stockpile was transferred to the Department of Health & Human Services (HHS) on August
13, 2004, as further explained in note 27.




                                                                                                           139
9. Prohibited Seized Property (unaudited)

Prohibited seized property item counts, as of September 30, and activity for the fiscal year ended September 30,
2004 and the seven months ended September 30, 2003, are as follows:

                                               Seizure Activity
Seized                                                                                                 Seized
                                    Fiscal Year Ended September 30, 2004
Property:                                                                                            Property:
                        Balance            New                            New                   September 30
Category         October 1, 2003       Seizures    Remissions      Forfeitures   Adjustments    Weight/Items
Illegal Drugs:
Cannabis                     331        560,809               0     (561,551)           2,587            2,176
(marijuana)
Cocaine                      153         36,632               0      (36,630)            (11)              144
Heroin                         22         1,591               0       (1,597)               2               18
Firearms and
Explosives                  7,757         3,830         (3,145)         (634)            (20)            7,788
Counterfeit
Currency
(US/Foreign)           2,853,395      1,346,492     (1,112,180)             0       (199,964)       2,887,743
Pornography                  178            353             (5)         (367)            (26)              133

                                             Forfeiture Activity
Forfeited                                                                                            Forfeited
                                    Fiscal Year Ended September 30, 2004
Property:                                                                                            Property:
Category                Balance             New                                                 September 30
                 October 1, 2003     Forfeitures     Transfers     Destroyed     Adjustments     Weight/Items
Illegal Drugs:
Cannabis
(marijuana)              113,531        561,551         (6,114)     (521,349)        (48,962)          98,657
Cocaine                   16,970         36,630           (298)      (34,971)           (983)          17,348
Heroin                      2,977         1,597             (8)      (13,980)         11,959             2,545
Firearms and
Explosives                  1,340           634         (1,699)          (39)              61              297
Pornography                    80           367               0         (414)               4               37




                                                                                                           140
Prohibited Seized Property, Continued (unaudited)

                                             Seizure Activity
Seized                                                                                        Seized
                                 Seven Months Ended September 30, 2003
Property:                                                                                     Property:
Category              Balance            New     Remissions              New    Adjustments   September 30
                 March 1, 2003       Seizures                     Forfeitures                  Weight/Items
Illegal Drugs:
Cannabis                1,191        321,745               0       (322,573)           (32)               331
(marijuana)
Cocaine                   164         19,298               0        (19,280)           (29)               153
Heroin                     18             382              0           (381)             3                 22
Firearms and
Explosives              6,992           2,554          (396)         (1,390)            (3)           7,757
Counterfeit
Currency
(US/Foreign)        2,892,538        224,215       (165,877)               0       (97,481)       2,853,395
Pornography               235             153            (3)           (187)           (20)               178

                                            Forfeiture Activity
Forfeited                                                                                          Forfeited
                                 Seven Months Ended September 30, 2003
Property:                                                                                          Property:
Category              Balance             New      Transfers      Destroyed     Adjustments   September 30
                 March 1, 2003     Forfeitures                                                 Weight/Items
Illegal Drugs:
Cannabis
(marijuana)           160,105        322,573               0       (359,768)        (9,379)         113,531
Cocaine                14,309         19,280            (23)        (16,221)          (375)          16,970
Heroin                  4,033             381           (31)         (1,373)           (33)           2,977
Firearms and
Explosives                292           1,390            (2)              (5)         (335)           1,340
Pornography                89             187            (1)           (202)             7                 80




                                                                                                           141
This schedule is presented for material prohibited (non-valued) seized and forfeited property only. These items
are retained and ultimately destroyed by CBP and USSS and are not transferred to the Departments of Treasury
or Justice Asset Forfeiture Funds or other Federal agencies. Adjustments include reclassification of property
categories and minor adjustments to the balances transferred-in on March 1, 2003. The ending balance for
firearms includes only those seized items that can actually be used as firearms. Illegal drugs are presented in
kilograms and a significant portion of the weight includes packaging, which often cannot be reasonably separated
from the weight of the drugs since the packaging must be maintained for evidentiary purposes. Firearms,
explosives, and pornography are presented in number of items; and counterfeit currency is presented in number
of bills.

USCG also seizes and takes temporary possession of small boats, equipment, contraband, and other illegal
drugs. USCG usually disposes of these properties within three days by transfer to CBP (who transfers non-
prohibited seized property to the Treasury Forfeiture Fund), the Drug Enforcement Administration, or foreign
governments, or by destroying it. Because USCG never takes ownership of the property and keeps it for a short
duration, seized property in USCG possession at year end is considered insignificant and therefore is not itemized
and is not reported in the consolidated financial statements of DHS.




                                                                                                           142
10. Property, Plant, and Equipment, Net
Property, plant, and equipment (PP&E), at September 30 consisted of the following (in millions):


                                                            Accumulated             Total
As of September 30, 2004           Service                  Depreciation/       Net Book
(unaudited):                          Life    Gross Cost    Amortization           Value

Land and Land Rights                   N/A           $54               $-             $54
Improvements to Land               3-50 yrs           23               10              13
Construction in Progress               N/A         1,570                -           1,570
Buildings, Other Structures,
and Facilities                     2-50 yrs        3,556            1,697           1,859
Equipment:
 ADP Equipment                     3-5 yrs           280              115             165
 Aircraft                        10-20 yrs         2,885            1,919             966
 Vessels                          5-10 yrs         4,045            1,843           2,202
 Vehicles                          3-6 yrs           484              311             173
 Other Equipment                  2-20 yrs         3,418            1,500           1,918
Assets Under Capital Lease        2-20 yrs            81               21              60
Leasehold Improvements            3-50 yrs           264               62             202
Internal Use Software             3-10 yrs           694              162             532
Internal Use Software- in
Development                            N/A             32                -             32

Total Property, Plant, and
Equipment                                        $17,386          $7,640           $9,746




                                                                                                   143
                                                Acquisition    Accumulated
                                                 Cost (with    Depreciation/         Total      Unaudited
                                    Service    Transfers at    Amortization      Net Book        Net Book
As of September 30, 2003:              Life          NBV)       (unaudited)         Value           Value

Land and Land Rights                    N/A             $54               $-           $54             $40
Improvements to Land                3-50 yrs              7                -             7               -
Construction in Progress                N/A           1,377                -         1,377             665
Buildings, Other Structures,
and Facilities                      2-50 yrs          1,894               31         1,863           1,084
Equipment:
 ADP Equipment                      3-5 yrs              34               6             28               -
 Aircraft                         10-20 yrs           1,152             102          1,050             617
 Vessels                           5-10 yrs           2,264              77          2,187             134
 Vehicles                           3-6 yrs             368             168            200               1
 Other Equipment                   2-20 yrs           1,803              31          1,772             299
Leasehold Improvements             3-50 yrs             160               7            153               -
Internal Use Software              3-10 yrs             236              34            202              38
Internal Use Software – in
Development                             N/A             245                -           245                -

Total Property, Plant, and
Equipment                                            $9,594            $456         $9,138         $2,878




Change in Presentation of Book Value

In accordance with FASAB Technical Bulletin 2003-1 (TB 2003-1) Certain Questions and Answers Related to the
Homeland Security Act of 2002, for the seven months ended September 30, 2003, the Department presented
legacy assets within the principle financial statements, as assets that were transferred at book value net of the
accumulated depreciation book value.

Beginning in FY 2004, the assets transferred into DHS during 2003 are presented at gross acquisition cost, less
accumulated depreciation since acquisition, resulting in increases in these amounts when compared with the
2003 presentation; however, there is no effect of this change on the total net book value of the transferred assets.
Although the presentation in the financial statement notes has changed from 2003 (presented assets equal to net
book value) to 2004 (present assets and accumulated depreciation at gross book value), the underlying
accounting and presentation for PP&E remains consistent with TB 2003-1 and SFFAS No. 6 Accounting for
Property, Plant, and Equipment.




                                                                                                              144
The formation of the Department of Homeland Security, pursuant to the Homeland Security Act of 2002,
constituted a government re-organization as opposed to a transfer of assets. Therefore, all DHS assets,
regardless of origin are presented at book value.

Cost Basis Conversion (unaudited):

                                          As of
                                        9/30/03   Accumulated     Conversion to                                    Gross
                                   (with March     Depreciation     Acquisition    FY 2004               Other       Cost
                                    1 transfers   /Amortization   Cost Basis at         Net      Adjustments/     Basis at
As of September 30, 2004:              at NBV)        at 3/1/03        9/30/03    Additions   Reclassifications   9/30/04


Land and Land Rights                       $54              $-             $54          $-                  $-        $54
Improvements to Land                         7              14              21           2                    -        23
Construction in Progress                 1,377                -          1,377         193                    -     1,570
Buildings, Other Structures, and
Facilities                               1,894           1,609           3,503         124                (71)      3,556
Equipment:
 ADP Equipment                              34                -             34         246                    -       280
 Aircraft                                1,152           1,756           2,908         (23)                   -     2,885
 Vessels                                 2,264           1,656           3,920         125                    -     4,045
 Vehicles                                  368              21             389          95                    -       484
 Other Equipment                         1,803           1,069           2,872         546                    -     3,418
Assets Under Capital Lease                    -              4               4           6                  71         81
Leasehold Improvements                     160              15             175          89                    -       264
Internal Use Software                      236              29             265         429                    -       694
Internal Use Software- in
Development                                245                -            245       (213)                    -        32
Total Property, Plant, and
Equipment                              $9,594           $6,173         $15,767      $1,619                  $0    $17,386




                                                                                                                             145
Accumulated Depreciation Conversion (unaudited):

                                          As of                   Conversion
                                        9/30/03   Accumulated               to       FY 2004                            Gross
                                   (with March    Depreciation/   Acquisition    Depreciation               Other Accumulated
                                    1 transfers   Amortization    Cost Basis     Expense and        Adjustments/ Depreciation
As of September 30, 2004:              at NBV)        at 3/1/03    at 9/30/03      Disposition   Reclassifications  at 9/30/04


Land and Land Rights                        $-              $-             $-              $-                $-            $-
Improvements to Land                          -             14             14              (4)                 -           10
Construction in Progress                      -               -              -               -                 -             -
Buildings, Other Structures, and
Facilities                                  31           1,609          1,640              63                (6)        1,697
Equipment:
 ADP Equipment                               6                -             6             109                  -          115
 Aircraft                                  102           1,756          1,858              61                  -        1,919
 Vessels                                    77           1,656          1,733             110                  -        1,843
 Vehicles                                  168              21            189             122                  -          311
 Other Equipment                            31           1,069          1,100             400                  -        1,500
Assets Under Capital Lease                    -              4              4              11                  6           21
Leasehold Improvements                       7              15             22              40                  -           62
Internal Use Software                       34              29             63              99                  -          162
Internal Use Software- in
Development                                   -               -              -               -                 -             -
Total Property, Plant, and
Equipment                                $456           $6,173        $6,629           $1,011                $0        $7,640




                                                                                                                         146
11. Other Assets
Other assets at September 30 consisted of the following (in millions):

                                                   2004
                                                                     2003
                                                (unaudited)
Intra-governmental:
Accounts Receivable                                   $311                $306
Receivables Due From Treasury (note 2)                 170                 109
Total Intra-governmental                               481                 415


Public:
Accounts Receivable and Related Interest               773                 591
Allowance for Doubtful Accounts                       (375)               (291)
Advances and Prepayments                               356                 365
Cash and Other Monetary Assets                           87                 59
Credit Program Receivables, Net (note 7)                  7                 15
Other                                                    15                 11
Total Public                                           863                 750


Total Other Assets                                  $1,344               $1,165

Intra-governmental accounts receivable results from reimbursable work performed by USCG, ICE, EPR, TSA and
CBP. Accounts receivable with the public consists of amounts due to CBP, TSA, EPR, USCG, and ICE for
reimbursable services and user fees. Advances and prepayments with the public consist primarily of National
Flood Insurance payments made by EPR.




                                                                                                     147
12. Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources at September 30 consisted of the following (in millions):

                                                                    2004
                                                                                     2003
                                                                 (unaudited)
Intra-governmental:
Accured FECA Liability (note 15)                                        $240           $178
Other                                                                      10             12
Total Intra-governmental                                                 250             190


Public:
Military Service and Other Retirement Benefits (note 16)              26,502         25,285
Accrued Payroll and Benefits:
 Accrued Leave (note 15)                                                 663             461
 Other Employment Related Liability (note 15)                            105             184
 Actuarial FECA Liability (note 15)                                    1,398           1,125
Claims and Claims Settlement Liabilities (note 13)                          9             44
Other:
 Environmental Cleanup Costs (note 19)                                   144              98
 Contingent Liabilities (note 19)                                          54             58
 Capital Lease Liability (notes 17 and 18)                               148             167
 Other                                                                      -               3
Total Public                                                          29,023         27,425


Total Liabilities Not Covered by Budgetary Resources                 $29,273        $27,615
Liabilities Covered by Budgetary Resources or
Non-Entity Assets                                                     13,046           9,053
Total Liabilities                                                    $42,319        $36,668

DHS anticipates that the liabilities listed above will be funded from future budgetary resources when required.
Budgetary resources are generally provided for unfunded leave when it is used. The USCG's environmental
liability for 2004 increased to $159 million ($144 million unfunded) from $98 million unfunded. This increase is due
to a revised estimating methodology that considers cost indexing and unknown contingency factor usage on
various shore sites; new liabilities associated with lighthouse and small arms firing ranges sites; and a revised
methodology for estimating the environmental liability for vessel cleanup and decommissioning to provide more
consistency by vessel type.



                                                                                                              148
13. Claims and Claims Settlement Liabilities

                                                           2004
                                                                             2003
                                                        (unaudited)
National Flood Insurance Program                             $1,357              $672
Cerro Grande Fire Assistance Act                                 60                  82
Total Claims and Claims Settlement Liabilities               $1,417              $754


A. National Flood Insurance Program (NFIP)

The NFIP liability for unpaid losses and related loss adjustment expenses and amounts paid for the year ended
September 30, 2004 and the seven months ended September 30, 2003 (unaudited) consisted of the following (in
millions):

                                                           2004
                                                                             2003
                                                        (unaudited)
Transferred-in NFIP liability (March 1, 2003)                    $-                 $59
Beginning Balance – September 30, 2003                          672                   -
Incurred losses and increase estimated losses                 1,505                 803
Less: Amounts paid during current period                      (820)              (190)
Total NFIP Liability at September 30                         $1,357              $672


The increase in incurred losses was primarily due to the four hurricanes (Charley, Frances, Ivan, and Jeanne) that
damaged the State of Florida and other U.S. coastal areas during the months of August and September 2004.

B. Cerro Grande Fire Assistance Act

The U.S. Department of Interior, National Park Service initiated a prescribed burn that resulted in the loss of
Federal, state, local, Indian tribal, and private property. In July 2000, Congress passed the Cerro Grande Fire
Assistance Act (CGFAA) to compensate as fully as possible those parties who suffered damages from the Cerro
Grande Fire.

At September 30, 2004 and 2003, the liability for unpaid claims and claim adjustment expenses represents an
estimate of the known probable and estimable losses that are unpaid as of September 30, 2004 and 2003, based
on the Final Rules dated March 21, 2001, entitled, the Disaster Assistance: Cerro Grande Fire Assistance, Final
Rule, published in the Federal Register Part II at 44 CFR Chapter I, Part 295. This estimated claims liability for
September 30, 2004 and 2003, includes $9 million (unaudited) and $44 million, respectively, which is unfunded.




                                                                                                            149
14. Deferred Revenue and Advances from Others

Deferred revenue at September 30, and CIS application fee activity for the year end September 30, 2004 and
seven months ended September 30, 2003 (unaudited), consisted of the following (in millions):

                                                            2004
                                                                               2003
                                                         (unaudited)
CIS Application Fees:
 March 1, 2003 transferred-in balance                              $-              $829
 Beginning Balance – September 30, 2003                           949                   -
 Collection deposited                                           1,354                 580
 Less: earned revenue (completed applications)                (1,429)              (439)
 Adjustments for undeposited collections and other                 15               (21)
Total CIS Application Fees                                        889                 949

EPR Unexpired NFIP premium                                      1,095             1,008
Advances from Others                                               14                  12
Deferred Credits                                                   22                   -
Total Deferred Revenue                                         $2,020            $1,969


CIS requires advance payments of the fees for applications or petitions for immigration, nationality, and
citizenship benefits. EPR’s deferred revenue relates to unearned NFIP premiums that are reserved to provide for
the unexpired period of insurance coverage.




                                                                                                          150
15. Accrued Payroll and Benefits

                                                                2004
                                                                                   2003
                                                             (unaudited)
Accrued Funded Payroll and Benefits                                 $495               $499
Accrued Unfunded Leave                                               663                   461
Unfunded Employment Related Liabilities                              105                   184
Actuarial FECA Liability                                           1,398               1,125
Other                                                                  31                    6

Total Accrued Payroll and Benefits                                $2,692             $2,275


Workers’ Compensation

Claims incurred for the benefit of DHS employees under FECA are administered by DOL and are ultimately paid
by DHS. The accrued liability representing money owed for current claims at September 30, 2004 and 2003
includes $240 million (unaudited) and $178 million, respectively, and is included in other liabilities (see note 17).
Future workers’ compensation estimates, generated from an application of actuarial procedures developed by the
DOL, for the future cost of approved compensation cases at September 30, 2004 and 2003, were $1.4 billion and
$1.1 billion, respectively. Workers’ compensation expense was $130 million (unaudited) for the fiscal year ended
September 30, 2004.


16. Military Service and Other Retirement Benefits
Accrued liability for military service and other retirement benefits at September 30 consisted of the following (in
millions):

                                                                               2004
                                                                                                 2003
                                                                            (unaudited)
  USCG Military Retirement and Healthcare Benefits                              $23,037          $21,745
  USCG Post-Employment Military Travel Benefits (unaudited)                           83              201
  USSS DC Pension Plan Benefits (unaudited)                                       3,382             3,339
  Total Military Service and Other Retirement Benefits Liability                $26,502          $25,285




                                                                                                                151
A. Military Retirement System Expense (unaudited)

The components of the Military Retirement System (MRS) expense for the year ended September 30, 2004,
consisted of the following (in millions):

 Defined Benefit Plan:
  Normal cost                                                                 $419
  Interest on the liability                                                   1,162
  Actuarial losses/(gains)                                                    (101)

  Actuarial Assumption Change                                                    39
  Plan Amendments                                                               432
 Total Defined Benefit Plan Expense                                           1,951

 Post-retirement Healthcare:
  Normal cost                                                                  143
  Interest on the liability                                                    219
  Losses/(gains) due to change in medical inflation rate assumptions          (128)
 Total Post-retirement Healthcare Expense                                      234

 Total MRS Expense                                                        $2,185


The USCG's MRS is comprised of the CG Military Retirement System and the CG Military Health Services
System. The USCG's military service members (both active duty and reservists) participate in the MRS. USCG
receives an annual "Retired Pay" appropriation to fund MRS benefits, thus the MRS is treated as a pay-as-you-go
plan. The retirement system allows voluntary retirement for active members upon credit of at least 20 years of
active service at any age. Reserve members may retire after 20 years of creditable service with benefits
beginning at age 60. The health services plan is a post-retirement medical benefit plan which covers all active
duty and reserve members of the USCG. The retirement plan's only assets are accounts receivable representing
unintentional overpayments of retiree benefits. The plan may subsequently recover such amounts through future
benefit payment adjustments or may elect to waive its right to recover such amounts. The health services plan
has no assets.

The unfunded accrued liability, presented as a component of the liability for military service and other retirement
in the accompanying Consolidated Balance Sheet, represents both retired pay and health care benefits for non-
Medicare eligible retirees/survivors. On October 1, 2002, USCG transferred the actuarial liability for payments for
the health care benefits of Medicare eligible retirees and survivors to the Department of Defense Medicare-
Eligible Retiree Health Care Fund (the Fund). USCG makes monthly payments to the Fund for current service
members. Valuation of the plan's liability is based on the actuarial present value of accumulated plan benefits
derived from the future payments that are attributable, under the retirement plan's provisions, to a participant's
credited service as of the valuation date. Credited service is the years of service from active duty base date (or
constructive date in the case of active duty reservists) to date of retirement measured in years and completed




                                                                                                              152
months. The present value of future benefits is then converted to an unfunded accrued liability by subtracting the
present value of future employer/employee normal contributions. USCG plan participants may retire after 20 years
of active service at any age with annual benefits equal to 2.5 percent of retired base pay for each year of credited
service up to 75 percent of basic pay. Personnel who became members after August 1, 1986 may elect to receive
a $30,000 lump sum bonus after 15 years of service and reduced benefits prior to age 62. Annual disability is
equal to the retired pay base multiplied by the larger of (1) 2.5 percent times years of service, or (2) percent
disability. The benefit cannot be more than 75 percent of retired pay base. If a USCG member is disabled, the
member is entitled to disability benefits, assuming the disability is at least 30 percent (under a standard schedule
of rating disabilities by Veterans Affairs) and either: (1) the member has 8 years of service, (2) the disability
results from active duty, or (3) the disability occurred in the line of duty during a time of war or national emergency
or certain other time periods.

Military retirement system changes from prior year consist of the following:

(1)     Concurrent Receipts – on November 24, 2003, Public Law 108-136 came into effect. This law approves
        the phase-in of full concurrent receipt of military retired pay and veterans’ disability compensation for
        certain military retirees who have veterans’ disability compensation rated at 50 percent or higher. These
        new benefits are to begin phase-in beginning January 1, 2004 until full implementation on January 1,
        2014.
(2)     Combat-Related Special Compensation (CRSC) – the CRSC program became effective May 31, 2003,
        for qualified retirees with combat-related disabilities. CRSC benefits are available for retirees with 20
        years of service and who have disabilities that are the direct result of armed conflict, especially hazardous
        military duty, or training exercises that simulate war, or are caused by an instrumentality of war. The
        retiree must be compensated by the Department of Veterans Affairs and rated at least 10% disabled. The
        amount of the CRSC benefits is equal to the amount of VA disability compensation offset from retired pay
        based on those disabilities determined to be combat-related.
(3)     "Redux" Benefit – prior assumptions of the percentages of Redux participants electing the $30,000 lump
        sum for both officers and enlisted were 41.59% and 48.5%, respectively. The actual combined experience
        of those electing the Redux benefit is 37.5%. The current assumption has been reduced to 40%.

The significant actuarial assumptions used to compute the MRS accrued liability are:

(a)     life expectancy is based upon the DoD death mortality table;
(b)     cost of living increases are 3.0 percent annually; and
(c)     annual rate of investment return is 6.25 percent.


B. District of Columbia Police and Fireman’s Retirement System for U.S. Secret Service Employees
(unaudited)

Special agents and personnel in certain job series hired by USSS before January 1, 1984, are eligible to transfer
to the District of Columbia Police and Fireman’s Retirement System (DC Pension Plan) after completion of ten
years of protection related experience. All uniformed USSS officers who were hired before January 1, 1984, are
automatically covered under this retirement system. Participants in the DC Pension Plan make contributions of 7
percent of base pay with no matching contribution made by USSS. Annuitants of this plan receive benefit
payments directly from the DC Pension Plan. The USSS reimburses the District of Columbia for the difference
between benefits provided to the annuitants, and payroll contributions received from current employees.




                                                                                                                153
This liability is presented as a component of the liability for military service and other retirement benefits in the
accompanying consolidated balance sheet. SFFAS No. 5 Accounting for Liabilities of the Federal Government
requires the administrative entity (administrator) to report the actuarial liability. However, the USSS adopted the
provisions of SFFAS No. 5 because the administrator, the DC Pension Plan, is not a Federal entity and as such
the liability for future funding would not otherwise be recorded in the United States government-wide consolidated
financial statements.

The liability and expense are computed using the aggregate cost method. The primary actuarial assumptions
used to determine the liability at September 30, 2004 are:

(1) life expectancy is based upon the 1994 Uninsured Pension (UP94) tables;
(2) cost of living increases are 3.5% annually;
(3) rates of salary increases are 3.5% annually; and
(4) annual rate of investment return is 7.25%.

Total expenses related to the DC Pension Plan for the fiscal year ended September 30, 2004, were $173 million,
of which $16 million was funded but not paid at September 30, 2004.




                                                                                                               154
17. Other Liabilities
Other liabilities at September 30 consisted of the following (in millions):

                                                                      2004
                                                                                             2003
                                                                   (unaudited)
Intra-governmental:
Accrued FECA Liability                                                      $240                $178
Advances from Others                                                          139                   77
Employer Benefits Contributions and Payroll Taxes                              69                   57
Other Intra-governmental Liabilities                                          115                   37
Total Intra-governmental Other Liabilities                                    563                349

Public:
Duties for Imports of Canadian Softwood Lumber (note 2)                    2,940               1,439
Injured Domestic Industries (note 2)                                          332                247
Contingent Legal Liabilities (notes 12 and 19)                                 80                   75
Capital Lease Liability (notes 12 and 18)                                     148                167
Environmental and Disposal Liabilities (notes 12 and 19)                      159                   98
Refunds and Drawbacks (note 2)                                                132                   98
Other Public Liabilities                                                      375                326
Total Public Other Liabilities                                             4,166               2,450

Total Other Liabilities                                                   $4,729              $2,799


Intra-governmental accrued FECA liability primarily represents the unfunded workers’ compensation for current
claims. Intra-governmental other liabilities consist principally of current liabilities, while the majority of public other
liabilities are considered non-current.

The Continued Dumping and Subsidy Offset Act of 2000 calls for CBP to collect and disburse monies received in
connection with antidumping and countervailing duty orders and findings to qualifying Injured Domestic Industries
(IDI). Antidumping duties are collected when it is determined that a class or kind of foreign merchandise is being
released into the U.S. economy at less than its fair value to the detriment of a U.S. industry. Countervailing duties
are collected when it is determined that a foreign government is providing a subsidy to its local industries to
manufacture, produce, or export a class or kind of merchandise for import into the U.S. commerce to the
detriment of a U.S. industry. Antidumping and countervailing duties collected and due to IDIs at September 30,
2004 and 2003, totaled $332 million and $247 million, respectively. CBP has collected Canadian softwood lumber




                                                                                                                     155
duties of $2.9 billion and $1.4 billion, respectively, as of September 30, 2004 and 2003. The duties will eventually
be distributed, pursuant to rulings by the Department of Commerce (DOC). Duties for imports of Canadian
softwood lumber are included in non-entity fund balance with Treasury, and represent a non-entity liability for
which there is an anti-dumping dispute currently being litigated.

Refunds and Other Payments

Disbursements from the refunds and drawback account for the fiscal year ended September 30, 2004, and the
seven months ended September 30, 2003 consisted of the following (in millions):

                             2004
                                           2003
                          (unaudited)
Refunds                           $566      $399
Drawback                           404        159

Total                             $970      $558

The disbursements include interest payments of $45 million. In certain instances, a refund may be identified prior
to liquidation for amounts remitted by the importer. These refunds are funded from the collections rather than the
refunds and drawback account. For the fiscal year ended September 30, 2004, these refunds totaled $251 million.

Amounts refunded during the fiscal year ended September 30, 2004, identified by entry year, consisted of the
following (in millions):

                             2004
        Entry Year:                       2003
                          (unaudited)
 2004                           $531          $-
 2003                             128        314
 2002                              64         84
 2001                              24         52
 Prior Years                      223        108

Total                           $970       $558

The disbursement totals for refunds includes antidumping and countervailing duties collected that are refunded
pursuant to rulings by the DOC. These duties are refunded when the DOC issues a decision in favor of the foreign
industry.




                                                                                                              156
The total amounts of antidumping and countervailing duties vary from year to year depending on decisions from
DOC. Antidumping and countervailing duty refunds (included in total refunds presented above) and associated
interest refunded for the fiscal year ended September 30, 2004 and the seven months ended September 30,
2003, consisted of the following (in millions):

                                                               2004
                                                                              2003
                                                            (unaudited)
Antidumping and countervailing duty refunds                          $75          $57
Interest                                                              19             13

Total Antidumping and countervailing duty refunds
                                                                     $94          $70



18. Leases

A. Operating Leases (unaudited)

The Department leases various facilities and equipment under leases accounted for as operating leases.
Leased items consist of offices, warehouses, vehicles, and other equipment. The majority of office space
occupied by the Department is either owned by the Federal government or is leased by GSA from commercial
sources. The Department is not committed to continue to pay rent to GSA beyond the period occupied providing
proper advance notice to GSA is made and unless the space occupied is designated as unique to DHS
operations. However, it is expected DHS will continue to occupy and lease office space from GSA in future years
and lease charges will be adjusted annually to reflect operating costs incurred by GSA.

As of September 30, 2004, estimated future minimum lease commitments under operating leases for equipment
and GSA controlled leases are as follows (in millions):

                                                   GSA      Non-GSA            Total
 FY 2005                                           $604           $62          $666
 FY 2006                                            642             63           705
 FY 2007                                            655             64           719
 FY 2008                                            659             65           724
 FY 2009                                            675             65           740
 Beyond FY 2009                                    2,937          143          3,080

 Total future minimum lease payments             $6,172          $462        $6,634

The estimated future lease payments for GSA controlled leases are based on payments made during the year
ended September 30, 2004. Lease payments to GSA are expected beyond FY 2009; however, costs cannot be
reasonably estimated.




                                                                                                          157
B. Capital Leases

DHS maintains capital leases for equipment, buildings, and commercial software license agreements. The
liabilities associated with capital leases and software license agreements are presented as other liabilities in the
accompanying consolidated financial statements based upon the present value of the future minimum lease
payments.

Certain license agreements are cancelable depending on future funding. Substantially all of the net present value
of capital lease obligations and software license agreements are expected to be funded from future sources.


19. Contingent Liabilities and Other Commitments

A. Legal Contingent Liabilities

The estimated contingent liability recorded in the accompanying financial statements included with other liabilities
for all probable and estimable litigation related claims at September 30, 2004, was $80 million (unaudited), of
which $26 million is funded. (At September 30, 2003, the estimated contingent liability was $75 million, of which
$17 million was funded). Asserted and pending legal claims for which loss is reasonably possible was estimated
to range from $3.8 billion to $3.9 billion (unaudited), at September 30, 2004 and 2003. Approximately $3.4 billion
of this estimated range involves cases related to the 1995 bombing of Alfred P. Murrah Federal Building in
Oklahoma City, that were transferred to DHS with the Federal Protective Service from the legacy agency.

The Department is subject to various other legal proceedings and claims. In management’s opinion, the ultimate
resolution of other actions will not materially affect the Department’s financial position or net costs.

B. Environmental Cleanup Liabilities

The Department is responsible to remediate its sites with environmental contamination, and is party to various
administrative proceedings, legal actions, and tort claims which may result in settlements or decisions adverse to
the Federal government.

The source of remediation requirements to determine the environmental liability is based on compliance with
Federal and state or local environmental laws and regulations. The major Federal laws covering environmental
response, cleanup and monitoring are the Comprehensive Environmental Response, Compensation, and Liability
Act (CERCLA) and the Resource Conservation and Recovery Act (RCRA). Environmental cleanup liability of $159
million ($15 million funded) (unaudited), as of September 30, 2004 and $98 million as of September 30, 2003, is
presented with other liabilities in the accompanying Consolidated Balance Sheet. The liabilities consist primarily of
fuel storage tank program, fuels, solvents, industrial, chemicals, and other environmental cleanup associated with
normal operations of the USCG. For Plum Island Animal Disease Center, under S&T, potential environmental
liabilities that are not presently estimable could exist due to the facility’s age, old building materials used, and
other materials associated with the facility’s past use as a United States Army installation for coastline defense.
Cost estimates for environmental and disposal liabilities are subject to revision as a result of changes in
technology and environmental laws and regulations.




                                                                                                                158
C. NFIP Premiums

NFIP premium rates are generally established for actuarially rated policies with the intent of generating sufficient
premiums to cover losses and loss adjustment expenses of a historical average loss year and to provide a surplus
to compensate the Insurance Underwriting Operations for the loss potential of an unusually severe loss year due
to catastrophic flooding. Notwithstanding the foregoing, subsidized rates are charged on a countrywide basis for
certain classifications of insured. These subsidized rates produce a premium less than the loss and loss
adjustment expenses expected to be incurred in a historical average loss year. The subsidized rates do not
include a provision for losses from catastrophic flooding. Subsidized rates are used to provide affordable
insurance on construction or substantial improvements started on or before December 31, 1974, or before the
effective date of the initial Flood Insurance Rate Map (i.e., an official map of a community on which NFIP has
delineated both the special hazard areas and the non-subsidized premium zones applicable to the community).
Any future loss potential of catastrophic flooding cannot be meaningfully quantified as it relates to insurance
policies in effect. Accordingly, the financial statements do not include any liability provision for future loss due to
catastrophic flooding.

D. Duty and Trade Refunds

There are various trade related matters that fall under the jurisdiction of other Federal agencies, such as the
DOC, which may result in refunds of duties, taxes, and fees collected by CBP, i.e., duties collected by CBP on
imports of Canadian softwood lumber. Until a decision is reached by the other Federal agencies, CBP does not
have sufficient information to estimate a contingent liability amount for trade related refunds under jurisdiction of
other Federal agencies. All known refunds as of September 30, 2004, and 2003, have been recorded.

E. Loaned Aircraft and Equipment

DHS is generally liable to the DoD for damage or loss to aircraft on loan to ICE. As of September 30, 2004, ICE
had 16 aircraft loaned from DoD with an acquisition value of $94 million (unaudited). (These aircraft were reported
as on loan to CBP, as of September 30, 2003. During FY 2004, CBP transferred these loaned aircraft to ICE.) No
damage or aircraft losses were accrued as of September 30, 2004.

F. Other Contractual Arrangements

In addition to future lease commitments discussed in Note 18, DHS is committed under contractual agreements
for goods and services that have been ordered but not yet received (undelivered orders) at fiscal year end.
Aggregate undelivered orders for all DHS activities amounted to $21 billion in FY 2004.

TSA entered into Letters of Intent with eight major airports in which TSA may reimburse the airports for 75 percent
of the cost (estimated at $957 million) needed to modify the facilities for security purposes. These Letters of Intent
would not obligate or commit TSA until funds are authorized and appropriated. In addition, the airports shall have
title to any improvements to its facilities. During fiscal years 2004 and 2003, approximately $213 million and $47
million, respectively, were appropriated, obligated and are available for payments to the airports upon submission
to TSA of an invoice for the modification costs incurred. As of September 30, 2004, TSA has received invoices or
documentation for cost incurred totaling over $72 million related to FY 2004 and 2003 Letters of Intent.




                                                                                                                 159
20. Consolidated Statement of Net Cost & Net Costs of DHS Components (unaudited)

Operating costs are summarized in the Consolidated Statement of Net Cost by responsibility segment, as
applicable to the reporting period. The net cost of operations is the gross (i.e., total) cost incurred by the
Department, less any exchange (i.e., earned) revenue. A responsibility segment is the component that carries out
a mission or major line of activity, and whose managers report directly to Departmental Management. For FY
2004 the Department’s responsibility segments were responsible for accomplishing the three objectives of the
President’s National Strategy for Homeland Security.

During FY 2004, the Department interpreted the National Strategy and developed its first Strategic Plan, which
included seven goals:

    1. Awareness: Identify and understand threats, assess vulnerabilities, and determine potential impacts.
       Disseminate timely and actionable information to our homeland security partners and the American
       public.
    2. Prevention: Detect, deter, thwart, and mitigate threats to our homeland.
    3. Protection: Safeguard our people and their freedoms, critical infrastructure, property, and the economy
       of our Nation from acts of terrorism, natural disasters and other emergencies.
    4. Response: Lead, manage and coordinate the national response to acts of terrorism, natural disasters,
       and other emergencies.
    5. Recovery: Lead national, state, local, and private sector efforts to restore services and rebuild
       communities after any act of terrorism, natural disaster, and other emergency.
    6. Service: Serve the public effectively by facilitating lawful trade, travel and immigration.
    7. Organizational Excellence: Value our most important resource, our people. Create a culture that
       promotes a common identify, innovation, mutual respect, accountability and teamwork to achieve
       efficiencies, effectiveness, and operational synergies.


Beginning with the FY 2005 budget, the Department integrated budget and performance information as required
by the President’s Management Agenda and the Government Performance and Results Act. To integrate
performance and financial information, a supplemental schedule of net cost is included in Other Accompanying
Information, in which costs by program are allocated to Departmental strategic goals.

Due to the complexity of the Border and Transportation Security Directorate organizational structure, a
supplemental schedule is presented to show the net cost of the Directorate’s suborganizations.




                                                                                                           160
Statement of Net Cost sub-schedule:
Components of Border and Transportation Security (BTS) Directorate (in millions)
For the year ended September 30, 2004 (unaudited)

                                                                      With the
                                            Intragovernmental          Public         Total
BTS HQ (Office of Undersecretary)
Gross Cost                                                  $6             $5          $11
Less Earned Revenue                                          -              -            -
Net Cost                                                     6              5           11

CBP
Gross Cost                                               1,545          4,582        6,127
Less Earned Revenue                                        (62)         (273)        (335)
Net Cost                                                 1,483          4,309        5,792

ICE, FPS, and FAM
Gross Cost                                                 742          3,586        4,328
Less Earned Revenue                                      (366)            (12)       (378)
Net Cost                                                   376          3,574        3,950

TSA
Gross Cost                                                571            5,387       5,958
Less Earned Revenue                                       (95)         (2,071)     (2,166)
Net Cost                                                  476            3,316       3,792

SLGCP
Gross Cost                                                151           1,698        1,849
Less Earned Revenue                                        (2)             (1)          (3)
Net Cost                                                  149           1,697        1,846

FLETC
Gross Cost                                                  27            195          222
Less Earned Revenue                                       (24)             (2)         (26)
Net Cost                                                     3            193          196

BTS Directorate Total
Gross Cost                                              3,042          15,453       18,495
 Less Earned Revenue                                    (549)          (2,359)      (2,908)
 NET COST - BTS                                        $2,493         $13,094      $15,587




                                                                                              161
21. Gross Cost and Earned Revenue by Budget Subfunction (BSF) Classification (unaudited)

The Department’s costs and revenue are included in the Financial Report of the United States government, which is published by the Department
of the Treasury. The Financial Report of the United States Government presents gross costs and earned revenue by budget subfunction (BSF).
The following is the Department’s gross cost and earned (exchange) revenue by BSF for the year ended September 30, 2004 (in millions) and
reported net of intra-departmental eliminations:


                                                       Pollution   Agricultural                     Community
                                           National    Control &    Research                        & Regional   Income     Administration       General     2004
                                           Defense    Abatement    & Services     Transportation   Development   Security       of Justice    Government     Total
 Agency Gross Cost:
 Gross Cost - Federal                         $769          $19            $31           $1,723          $896         $-           $3,712          $337     $7,487
 Less: Intra-Departmental Eliminations         (15)            -            (4)             (27)          (30)          -           (447)          (160)     (683)
 Inter-Departmental Gross Cost - Federal       754           19             27            1,696           866           -           3,265           177      6,804
 Gross Cost - Public                           563           95          (269)           13,017          7,586       152           10,733           865     32,742
 Agency Gross Cost                          $1,317         $114         ($242)          $14,713         $8,452      $152          $13,998         $1,042   $39,546


 Agency Exchange Revenue:
 Exchange Revenue - Federal                     $1           $-          $109              $316          $151         $-             $532          $336     $1,445
 Less: Intra-Departmental Eliminations          (1)            -          (72)            (131)           (31)          -           (358)           (86)     (679)
 Inter-Dept. Exchange Revenue - Federal           -            -            37              185           120           -             174           250       766
 Exchange Revenue - Public                        -          17              5            2,121          1,901          -           1,546            62      5,652
 Agency Exchange Revenue                        $-          $17           $42            $2,306         $2,021        $-           $1,720          $312     $6,418


 Agency Net Cost                            $1,317          $97         ($284)          $12,407         $6,431      $152          $12,278          $730    $33,128




                                                                                                                                        162
22. Combined Statement of Budgetary Resources (SBR) (unaudited)

The Combined Statement of Budgetary Resources (SBR) provides information about how budgetary resources
were made available as well as their status at the end of the period. It is the only financial statement exclusively
derived from the entity’s budgetary general ledger in accordance with budgetary accounting rules that are
incorporated into generally accepted accounting principles for the Federal government. The total Budgetary
Resources of $53,879 million for FY 2004 includes new budget authority, unobligated balances at the beginning
of the year and transferred in/out, spending authority from offsetting collections, recoveries of prior year
obligations, and adjustments.

A. Appropriations Received

Appropriations received on the SBR of $38,303 million will not match the amounts reported on the Consolidated
Statement of Changes in Net Position (SCNP) of $33,410 million due to $4,893 million of trust and special fund
receipts that are not reflected in the unexpended appropriations section of the SCNP.

B. Permanently Not Available/Adjustments

Budgetary resources permanently not available on the SBR of $2,563 million do not agree with the unavailable
appropriations returned to Treasury of $2,398 million on the SCNP due to: (1) reclassification of trust funds from
unexpended appropriation to cumulative net results of operations which has no effect on the SBR; (2) authority
permanently unavailable that was processed through cumulative results of operations and not unexpended
appropriations; (3) repayments of debt that were processed through payables and not unexpended
appropriations; and (4) reductions of borrowing authority that have no effect on the proprietary accounts.

C. Apportionment Categories of Obligations Incurred

Apportionment categories are determined in accordance with the guidance provided in OMB Circular A-11,
Preparation, Submission, and Execution of the Budget. Category A represents resources apportioned for calendar
quarters. Category B represents resources apportioned for other time periods; for activities, projects, or
objectives; or for any combination thereof (in millions).

                                             Apportionment       Apportionment         Exempt from
                                                Category A          Category B       Apportionment           Total
  Obligations Incurred - Direct                      $24,260             $18,634                 $734     $43,628
  Obligations Incurred - Reimbursable                   2,015                 854                  11        2,880
  Total Obligations Incurred                         $26,275             $19,488                 $745     $46,508


D. Borrowing Authority for EPR

The NFIP has borrowing authority of $1.5 billion available as of September 30, 2004 for disaster relief purposes.
NFIP loans are for a three year term. Interest rates are obtained from the Bureau of Public Debt. Simple interest is
calculated monthly, and is offset by any interest rebate, if applicable. Interest is paid semi-annually on October 1
and April 1. Partial loan repayments are permitted. Principal repayments are required only at maturity, but are




                                                                                                                163
permitted at any time during the term of the loan. At the end of the Fiscal Year, borrowing authority is reduced by
the amount of any unused portion. EPR’s liability for borrowed amounts was $8 million at September 30, 2004.

Under Credit Reform, the unsubsidized portion of direct loans is borrowed from the Treasury. The repayment
terms of EPR's borrowing from Treasury are based on the life of each cohort of direct loans. Proceeds from
collections of principal and interest from the borrowers are used to repay the Treasury. In addition, an annual
reestimate is performed to determine any change from the original subsidy rate. If an upward reestimate is
determined to be necessary, these funds are available through permanent indefinite authority. Once these funds
are appropriated, the original borrowings are repaid to the Treasury.

EPR maintains three funds under the Credit Reform Act:

•   70-4234: Disaster Assistance Direct Loan Financing
•   70-0703: Disaster Assistance Direct Loan Program (no year)
•   70-0703: Disaster Assistance Direct Loan Program (annual)

E. Non-Budgetary, Credit Program, and Financing Account

Included in the SBR are amounts for DHS’s one financing account in EPR for Disaster Assistance Direct Loan.
This non-budgetary financing account is not presented separately on the SBR because the amounts and impact
are immaterial. Financing account information for the fiscal year ended September 30, 2004 is presented below
(in millions):

    Budgetary Resources
    Budget Authority:
     Borrowing Authority                                        $26
    Spending Authority from Offsetting Collections:
     Receivable from Federal Sources                             (3)
     Recoveries of Prior Year Obligations                          3
    Permanently Not Available:
     Other Authority Withdrawn                                  (26)
    Total Budgetary Resources                                    $0

    Total Status of Budgetary Resources                          $0

    Total Outlays                                                $0


F. Explanation of Differences between the Combined Statement of Budgetary Resources and the Budget
of the United States Government

The SBR has been prepared to coincide with the amounts shown in the President’s Budget (Budget of the United
States Government). The actual amounts for FY 2004 in the President’s Budget have not been published at the
time these financial statements were prepared. The President’s Budget with the actual FY 2003 amounts was
released in February 2004, and the actual FY 2004 amounts are estimated to be released in February 2005.
The Department’s FY 2003 budget amounts does not match the FY 2003 President’s Budget, primarily due to the
SBR reflecting only seven months covering the period from March 1, 2003 to September 30, 2003, whereas the




                                                                                                              164
President’s Budget has been annualized and covers the period from October 1, 2002 to September 30, 2003. The
SBR includes expired appropriations while the Budget does not.

G. Adjustments to Beginning Balance of Budgetary Resources

The Oil Spill Liability Trust Fund is managed by the U.S. Department of Treasury’s Bureau of Public Debt (BPD).
During FY 2004, the Office of Budget and Management (OMB) directed two adjustments to comply with OMB
Circular A-11 and applicable U.S. Standard General Ledger Guidance. The BPD was first required to change
FACTS II budgetary reporting to reflect receipts unavailable for obligation upon collection, rather than unobligated
funds exempt from apportionment. The second change required adjusting the Fund’s beginning balances to
reflect investment authority available. These changes required a downward adjustment of $782 million to the
unobligated balance as presented in the Statement of Budgetary Resources.


23. Permanent Indefinite Appropriations

Permanent indefinite appropriations refer to the appropriations that result from permanent public laws, which
authorize the Department to retain certain receipts. The amount appropriated depends upon the amount of the
receipts rather than on a specific amount. The Department has two permanent indefinite appropriations as
follows:

•   CBP has a permanent and indefinite appropriation, which is used to disburse tax and duty refunds, and duty
    drawbacks. Although funded through appropriations, refund and drawback activity is, in most instances,
    reported as a custodial activity of the Department. This presentation is appropriate because refunds are
    custodial revenue-related activity in that refunds are a direct result of taxpayer overpayments of their tax
    liabilities. Federal tax revenue received from taxpayers is not available for use in the operation of the
    Department and is not reported on the Consolidated Statement of Net Cost. Likewise, the refunds of
    overpayments are not available for use by the Department in its operations. Refunds and drawback
    disbursements totaled $970 million (unaudited) for the fiscal year ended September 30, 2004 and $558 for the
    seven months ended September 30, 2003, and are presented as a use of custodial revenue on the Statement
    of Custodial Activity.
•   USSS has a permanent and indefinite appropriation which is used to reimburse the District of Columbia Police
    and Fireman’s Retirement System (DC Pension Plan) for the difference between benefits provided to the
    annuitants (employees) eligible to participate in the DC Pension Plan (see note 16), and payroll contributions
    received from current employees.
These appropriations are not subject to budgetary ceilings established by Congress. CBP’s refunds payable at
year end are not subject to funding restrictions. Refund payment funding is recognized as appropriations are
used.


24. Legal Arrangements Affecting the Use of Unobligated Balances of Budget Authority

Unobligated balances, whose period of availability has expired, are not available to fund new obligations. Expired
unobligated balances are available to pay for current period adjustments to obligations incurred prior to expiration.
For a fixed appropriation account, the balance can be carried forward for five fiscal years after the period of
availability ends. At the end of the fifth fiscal year, the account is closed and any remaining balance is canceled.
For a no-year account, the unobligated balance is carried forward indefinitely until (1) specifically rescinded by
law; or (2) the head of the agency concerned or the President determines that the purposes for which the




                                                                                                              165
appropriation was made have been carried out and disbursements have not been made against the appropriation
for two consecutive years.

Included in the cumulative results of operations for special funds is $1,015 million that represents the
Department’s authority to assess and collect user fees relating to merchandise and passenger processing, to
assess and collect fees associated with services performed at certain small airports or other facilities, retain
amounts needed to offset costs associated with collecting duties, and taxes and fees for the government of
Puerto Rico. These special fund balances are restricted by law in their use to offset specific costs incurred by the
Department. In addition, the Department is required to maintain $30 million in its User Fees Account. Part of the
passenger fees in the User Fees Account, totaling approximately $730 million (unaudited) and $640 million at
September 30, 2004 and 2003 respectively, is restricted by law in its use to offset specific costs incurred by the
Department and are available to the extent provided in Department Appropriation Acts.

The entity trust fund balances result from the Department’s authority to use the proceeds from general order items
sold at auction to offset specific costs incurred by the Department relating to their sale, to use available funds in
the Salaries and Expense Trust Fund to offset specific costs for expanding border and port enforcement activities,
and to use available funds from the Harbor Maintenance Fee Trust Fund to offset administrative expenses related
to the collection of the Harbor Maintenance Fee.


25. Explanation of the Relationship Between Liabilities Not Covered by Budgetary
Resources and the Changes in Components Requiring or Generating Resources in
Future Periods (unaudited)

The relationship between the amounts reported as liabilities not covered by budgetary resources on the balance
sheet and amounts reported as components requiring or generating resources in future periods on the Statement
of Financing were analyzed. The differences are primarily due to the increase in the USCG actuarial pension
liability of $1.3 billion in fiscal year 2004, which does not generate net cost of operations or require the use of
budgetary resources.

26. Dedicated Collections

The Department administers various Trust Funds that receive dedicated collections. In the U.S. Government
budget, Trust Funds are accounted for separately and used only for specified purposes. A brief description of the
major Trust Funds and their purpose follows.

A. Oil Spill Liability Trust Fund

The Oil Spill Liability Trust Fund (OSLTF) was established by the Oil Pollution Act (OPA) of 1990, P.L. 101-380, to
help facilitate cleanup activities and compensate for damages from oil spills. OSLTF account includes the parent
OSLTF fund that is managed by BPD, the USCG Oil Spill Recovery transfer account, the USCG Trust Fund
Share of Expenses transfer account, and the USCG OPA Claims transfer account. These three transfer accounts
fund outlays through SF-1151 non-expenditure transfers from the BPD OSLTF parent fund.




                                                                                                               166
B. Boat Safety Account

The USCG’s Boat Safety Account was established by Federal Boat Safety Act (FBSA) of 1971, P.L. 92-75, to
“encourage greater State participation and uniformity in boating safety efforts, and particularly to permit the States
to assume the greater share of boating safety education, assistance, and enforcement activities.” The Boat Safety
Account receives funding from the Department of Interior’s Sport Fish Restoration Account, which is funded in
part from the Aquatic Resource Trust Fund (ARTF) managed by Bureau of Public Debt (BPD). Funds are
available until expended (no-year). Outlays in this account are funded through SF-1151 non-expenditure transfers
from the Sport Fish account.

Condensed financial information as of and for the fiscal year ended September 30, 2004 and as of and for the
seven months ended September 30, 2003, is presented below (in millions):

                                                      2004                              2003
                                                   (unaudited)
                                             Oil Spill        Boat             Oil Spill         Boat
                                             Liability       Safety            Liability        Safety
                                            Trust Fund      Account           Trust Fund       Account
Assets:
 Investments                                      $838             $-               $965             $-
 Other Assets                                        26             68                 48            58
Total Assets                                      $864            $68             $1,013            $58

Liabilities:
 Accounts Payable                                    $1           $19                  $-           $23
 Other Liabilities                                     -              -                 3                -
Total Liabilities                                     1             19                  3            23

Net Position:
 Transfers In without Reimbursement               1,010             35             1,000            100
 Non-Exchange Revenue                              (32)             64                 52                -
 Less: Program Expenses                           (115)           (50)               (42)           (65)
Net Position                                        863             49             1,010             35

Total Liabilities and Net Position                $864            $68             $1,013            $58




                                                                                                                167
27. Transfer of the Strategic National Stockpile (unaudited)
The transfer of the Strategic National Stockpile (SNS) pursuant to Project Bioshield Act of 2004 had an effect on
all of the Department’s fiscal year 2004 financial statements, except for the Statement of Custodial Activity.

The following lines on the Department’s Consolidated Balance Sheet, Consolidated Statement of Net Cost,
Consolidated Statement of Changes in Net Position, Consolidated Statement of Financing, and Combined
Statement of Budgetary Resources include the transfer out of assets, liabilities, net position, and budgetary
resources of the SNS as of August 13, 2004, the date of transfer.


Consolidated Balance Sheet (in millions)

Fund Balance with Treasury                                                $626
Operating Materials and Supplies, Inventory and Stockpile                  924
Property, Plant and Equipment, Net                                            5
Total Assets                                                            $1,555

Accounts Payable                                                           $88
Unexpended Appropriations                                                  538
Cumulative Results of Operations                                           929
Total Liabilities and Net Position                                      $1,555


Consolidated Statement of Net Cost (in millions)

Costs – Intra-governmental                                                 $98
Less Earned Revenue – Intra-governmental                                       -
Net Cost – Intra-governmental                                              $98

Costs – With the Public                                                      $-
Less Earned Revenue – With the Public                                          -
Net Cost – With the Public                                                   $-

Net Cost of Operation                                                      $98




                                                                                                                168
Consolidated Statement of Changes in Net Position (SCNP) and
Consolidated Statement of Financing (SOF) (in millions)

Appropriations Transferred In/Out (Unexpended Appropriations) –
SCNP only                                                              $538

Other Financing Sources (Non-Exchange): Transfers In/Out without
Reimbursement (Cumulative Results) – Both SCNP and SOF                 $929



Combined Statements of Budgetary Resources (in millions)

Budgetary Resources – Budget Authority – Net Transfers, Current Year   $11

Budgetary Resources – Budget Authority – Net Transfers, Balance        $53

Budgetary Resources – Unobligated Balance – Net Transfers              $64

Budgetary Resources – Relationship of Obligations to Outlays –
Obligated Balance Transferred, Net                                     $561




                                                                              169
Required Supplementary Information (unaudited)
Deferred Maintenance

The Department components use condition assessment as the method for determining the deferred maintenance
for each class of asset. The procedure includes reviewing equipment, building, and other structure logistic reports.
Component logistic personnel identify maintenance not performed as scheduled and establish future performance
dates. Logistic personnel use a condition assessment survey to determine the status of referenced assets
according to the range of conditions shown below:

Good. Facility/equipment condition meets established maintenance standards, operates efficiently, and has a
normal life expectancy. Scheduled maintenance should be sufficient to maintain the current condition. There is no
deferred maintenance on buildings or equipment in good condition.

Fair. Facility/equipment condition meets minimum standards but requires additional maintenance or repair to
prevent further deterioration, increase operating efficiency, and to achieve normal life expectancy.

Poor. Facility/equipment does not meet most maintenance standards and requires frequent repairs to prevent
accelerated deterioration and provide a minimal level of operating function. In some cases, this includes
condemned or failed facilities. Based on periodic condition assessments, an indicator of condition is the percent of
facilities and item of equipment in each of the good, fair, or poor categories.

In FY 2004, the Department reported $591 million in deferred maintenance on general property, plant, and
equipment, and heritage assets. This amount represents maintenance on vehicles, vessels, and buildings and
structures owned by the Department that was not performed when it should have been or was scheduled to be
and which is delayed for a future period.

A summary of deferred maintenance at September 30, 2004 is presented below (in millions):

                                           Deferred             Asset
                                        Maintenance          Condition
Building & Structures                           $467        Poor to Fair
Equipment (vehicles and vessels)                   92       Poor to Fair
Heritage assets                                    32       Poor to Fair
Total                                           $591




                                 See accompanying Independent Auditors’ Report.
                                       Required Supplementary Information




                                                                                                             170
 Intra-Governmental Transaction Disclosures

 Intra-governmental transaction amounts represent transactions between Federal entities included in the Financial
 Report of the United States Government (formerly the Consolidated Financial Statements of the United States
 Government) published by the U.S. Department of the Treasury. All amounts presented are net of intra-
 departmental eliminations.

 The amount of intra-governmental assets and liabilities classified by trading partner at September 30, 2004 and
 2003, are summarized below (in millions).

Intra-governmental Assets as of September 30, 2004 (in Millions)
                                                                    Investments
                                              Fund Balance           and Related     Advances and
Partner Agency                                with Treasury              Interest     Prepayments      Other

Treasury General Fund                                      $-                   $-               $-     $170
Department of Commerce                                      -                    -                 3        -
Department of Interior                                      -                    -                 -      69
Department of Justice                                       -                    -               83       61
Department of Labor                                         -                    -               63         -
Department of the Navy                                      -                    -               12       17
Department of State                                         -                    -                 -      13
Department of Treasury                                33,436                1,625                15       40
Social Security Administration                              -                    -                 -        5
Department of the Army                                      -                    -                 -      12
National Science Foundation                                 -                    -                 -        6
Department of Transportation                                -                    -            2,673         6
Office of the Secretary of Defense Agencies                 -                    -               37       80
Other                                                       -                    -                 -        2

Totals                                               $33,436               $1,625            $2,886     $481




                                 See accompanying Independent Auditors’ Report.
                                       Required Supplementary Information




                                                                                                            171
Intra-governmental Assets as of September 30, 2003 (in Millions)
                                                                     Investments
                                                Fund Balance          and Related     Advances and
Partner Agency                                  with Treasury             Interest     Prepayments   Other

Treasury General Fund                                       $-                 $-              $-    $109
Department of Commerce                                       -                   -              10       -
Department of Interior                                       -                   -               8     62
Department of Justice                                        -                   -              11     54
Department of the Navy                                       -                   -              87   (113)
Department of State                                          -                   -               -     23
Department of Treasury                                  27,343              1,546               32    184
General Services Administration                              -                   -               -      7
National Science Foundation                                  -                   -               -      8
Environmental Protection Agency                              -                   -               -      5
Department of Transportation                                 -                   -           2,772     40
Dept of Health & Human Services                              -                   -              37       -
U.S. Army Corps of Engineers                                 -                   -               -      7
Office of the Secretary of Defense                           -                   -               -     40
Agencies
Other                                                        -                   -              97    (11)

Totals                                                $27,343              $1,546           $3,054   $415




                                     See accompanying Independent Auditors’ Report.
                                           Required Supplementary Information




                                                                                                             172
Intra-governmental Liabilities as of September 30, 2004 (in Millions)

Partner Agency                                  Due to Treasury     Accounts Payable        Other

Treasury General Fund                                    $1,257                       $-      $8
Department of Agriculture                                      -                       16      2
Department of Commerce                                         -                        -       -
Department of Interior                                         -                       12       -
Department of Justice                                          -                      123     30
Department of Labor                                            -                        -    242
Department of the Navy                                         -                       38      7
Department of State                                            -                        7     13
Department of Treasury                                         -                      (4)     26
Department of Veterans Affairs                                 -                       10      4
Department of the Army                                         -                       24     41
Office of Personnel Management                                 -                        4     52
Social Security Administration                                 -                        -      9
General Services Administration                                -                       18     63
Environmental Protection Agency                                -                       10      1
Department of the Air Force                                    -                       18      2
Department of Transportation                                   -                       12     34
Department of Health & Human Services                          -                       40      6
Department of Energy                                           -                      127      3
U.S. Army Corps of Engineers                                   -                      136       -
Office of the Secretary of Defense                             -                      316     12
Agencies
Other                                                          -                        4      8

Totals                                                   $1,257                   $911      $563




                                     See accompanying Independent Auditors’ Report.
                                           Required Supplementary Information




                                                                                                    173
Intra-governmental Liabilities as of September 30, 2003 (in Millions)
Partner Agency                                   Due to Treasury     Accounts Payable     Other

Treasury General Fund                                      $1,209                    $-     $3
Department of Justice                                            -                  17       6
Department of Labor                                              -                    -    184
Department of the Navy                                           -                  78     (10)
Department of State                                              -                   4       5
Department of Treasury                                           -                   5      10
Department of the Army                                           -                   6        -
Office of Personnel Management                                   -                    -     27
General Services Administration                                  -                   57     10
Department of Transportation                                     -                    -     34
Department of Health & Human Services                            -                  24        -
U.S. Army Corps of Engineers                                     -                   20     59
Office of the Secretary of Defense Agencies                      -                 124       9
Other                                                            -                  63      12
Totals                                                     $1,209                  $398   $349




                                  See accompanying Independent Auditors’ Report.
                                        Required Supplementary Information




                                                                                                  174
FY 2004 Intra-governmental Exchange Revenue from Trade Transactions (in Millions)

Partner Agency                                  Exchange Revenue

Executive Office of the President                                 $8
Department of Agriculture                                          7
Department of Commerce                                             7
Department of Interior                                             7
Department of Justice                                           152
Department of the Navy                                            24
Department of State                                               52
Department of Treasury                                            70
Department of the Army                                          102
Social Security Administration                                  101
General Services Administration                                   16
National Science Foundation                                       13
Environmental Protection Agency                                   25
Department of Transportation                                    135
Department of Health & Human Services                             19
Department of Education                                            7
National Transportation Safety Board                              16
Other                                                              5

Totals                                                         $766

 FY 2004 Cost to Generate Intra-governmental Exchange Revenue, by BSF (in Millions)

 Budget Subfunction                                    Cost

 Transportation                                        $123
 Community and Regional Development                      87
 Administration of Justice                              147
 General Government                                     840

 Total                                               $1,197


                                    See accompanying Independent Auditors’ Report.
                                          Required Supplementary Information




                                                                                      175
FY 2004 Intra-governmental Non-Exchange Revenue (in Millions)

Partner Agency                              Transfers-In     Transfers-Out

Department of Interior                                $-                 $7
Department of Treasury                               240                161
General Services Administration                      101                   -
Environmental Protection Agency                         -                16
Department of Transportation                            -                13
Other                                                  2                  5

Totals                                             $343                $202




                                  See accompanying Independent Auditors’ Report.
                                        Required Supplementary Information




                                                                                   176
Combined Schedule of FY 2004 Budgetary Resources by Responsibility Segments (in Millions)

                                                       Border and                     Information                                                       U.S.           Depart-
                                                                         Emergency                                      U.S.          U.S.
                                                       Transport-                      Analysis &      Science &                                   Citizenship &        mental
                                                                        Preparedness                                   Coast         Secret                                             Total
                                                          ation                      Infrastructure   Technology                                   Immigration         Offices &
                                                                         & Response                                    Guard         Service
BUDGETARY RESOURCES                                     Security                       Protection                                                    Services           Other
Budget Authority:
                                                                                                                                                                                          $38,303
 Appropriations Received                                  $19,467             $6,793          $839          $918        $6,928        $1,341              $1,551           $466
 Borrowing Authority                                                -             26              -                -             -             -                   -               -             26
 Net Transfers                                                619                (63)             -                -       204                 -            (25)              22                757
Unobligated Balance:
 Beginning of Period                                         3,464              3,306           25           352         1,023           101                 190             198            8,659
 Net Transfers                                                 76                (45)           11                 -             -        (1)                      -               -             41

Spending Authority from Offsetting Collections:
 Earned:
   Collected                                                                                                                                                                                6,282
                                                             3,843              2,046             1                -       311            27                  11              43
   Receivable from Federal Sources                            (30)                (3)             -                -           42              -              (4)              4                  9
   Change in Unfilled Customer Orders:
   Advances Received                                           37                 25              -           22           (25)           22                  10              (4)                87
                                                                                                                                                                                                258
   Without Advances From Federal Sources                      (21)               215              -            2               (5)        (2)                  7              62

 Transfers from Trust Funds                                     3                   -             -                -           52              -                   -               -             55

Total Spending Authority from Offsetting Collections
                                                             3,832              2,283             1           24           375            47                  24             105            6,691
                                                                                                                                                                                       (continued)




                                                                                                                                                             177
Combined Schedule of FY 2004 Budgetary Resources by Responsibility Segments (in Millions), continued
                                                   Border and                     Information                                                      U.S.           Depart-
                                                                     Emergency                                      U.S.         U.S.
                                                   Transport-                      Analysis &      Science &                                  Citizenship &        mental
                                                                    Preparedness                                   Coast        Secret                                             Total
                                                      ation                      Infrastructure   Technology                                  Immigration         Offices &
                                                                     & Response                                    Guard        Service
                                                    Security                       Protection                                                   Services           Other

Recoveries of Prior Year Obligations                     1,220               483             6                 -           63        16                 187               7            1,982
Temporarily Not Available Pursuant to Public Law                -            (17)             -                -            -             -                   -               -            (17)
Permanently Not Available                              (2,056)              (288)          (15)           (5)         (145)         (46)                 (4)             (4)          (2,563)
TOTAL BUDGETARY RESOURCES                             $26,622            $12,478          $867        $1,289        $8,448       $1,458              $1,923           $794           $53,879

STATUS OF BUDGETARY RESOURCES
Obligations Incurred:
 Direct                                               $21,543             $9,958          $760          $891        $7,021       $1,362              $1,557           $536           $43,628
 Reimbursable                                            1,934               389             1            17           350           42                  49              98            2,880
Total Obligations Incurred                             23,477             10,347           761           908         7,371        1,404               1,606             634           46,508
Unobligated Balances Available:
 Apportioned                                             2,091              2,026           80           381           858           11                 110             134            5,691
 Exempt from Apportionment                                      -             10              -                -           32             -                   -               -             42
Unobligated Balances Not Available                       1,054                95            26                 -       187           43                 207              26            1,638

TOTAL STATUS OF BUDGETARY RESOURCES                   $26,622            $12,478          $867        $1,289        $8,448       $1,458              $1,923            $794          $53,879

                                                                                                                                                                                  (continued)




                                                                                                                                                        178
Combined Schedule of FY 2004 Budgetary Resources by Responsibility Segments (in Millions), continued

                                                 Border and                     Information                                                     U.S.           Depart-
                                                                   Emergency                                      U.S.        U.S.
                                                 Transport-                      Analysis &      Science &                                 Citizenship &        mental
                                                                  Preparedness                                   Coast       Secret                                            Total
                                                    ation                      Infrastructure   Technology                                 Immigration         Offices &
                                                                   & Response                                    Guard       Service
                                                  Security                       Protection                                                  Services           Other
RELATIONSHIP OF OBLIGATIONS TO
OUTLAYS
Obligated Balance, Net, Beginning of Period          $7,605             $8,038          $192          $119        $2,489        $268               $679            $299 $19,689
Obligated Balance Transferred, Net                            -           (561)            2                 -           -             -                   -               -    (559)
Obligated Balance, Net, End of Period:
 Accounts Receivable                                   (198)               (21)             -                -      (145)              -            (69)              (4)       (437)
 Unfilled Customer Orders from Federal Sources         (488)              (336)           (1)           (2)          (72)         (9)                 (2)           (71)        (981)
 Undelivered Orders                                    9,035              8,463          412           356         2,044         246                 427             371       21,354
 Accounts Payable                                      2,378              2,038          140           217           751          54                 176             112        5,866
Total Obligated Balance, Net, End of Period         $10,727            $10,144          $551          $571        $2,578        $291               $532             $408 $25,802
Outlays:
 Disbursements                                      $19,200             $6,983          $400          $455        $7,182      $1,368              $1,563            $450 $37,601
 Collections                                         (3,883)            (2,070)           (1)          (23)         (339)        (49)               (21)             (38)      (6,424)
Total Outlays                                        15,317               4,913          399           432         6,843       1,319               1,542             412       31,177
Less: Offsetting Receipts                            (2,292)                (2)             -                -       (20)         (1)            (1,464)                   -   (3,779)
NET OUTLAYS                                         $13,025             $4,911          $399          $432        $6,823      $1,318                 $78           $412 $27,398




                                                       See accompanying Independent Auditors’ Report.
                                                             Required Supplementary Information




                                                                                                                                                     179
Custodial Activity

Substantially all duty, tax, and fee revenues collected by CBP are remitted to various General Fund accounts
maintained by Treasury. Treasury further distributes these revenues to other Federal agencies in accordance with
various laws and regulations. CBP transfers the remaining revenue (generally less than two percent of revenues
collected) directly to other Federal agencies, the Governments of Puerto Rico and the U.S. Virgin Islands, or
retains funds as authorized by law or regulations. Refunds of revenues collected from import/export activities are
recorded in separate accounts established for this purpose and are funded through permanent indefinite
appropriations. These activities reflect the non-entity, or custodial, responsibilities that CBP, as an agency of the
Federal government, has been authorized by law to enforce.

CBP reviews selected documents to ensure all duties, taxes, and fees owed to the Federal government are paid
and to ensure regulations are followed. If CBP believes duties, taxes, fees, fines, or penalties are due in addition
to estimated amounts previously paid by the importer/violator, the importer/violator is notified of the additional
amount due. CBP regulations allow the importer/violator to file a protest on the additional amount due for review
by the Port Director. A protest allows the importer/violator the opportunity to submit additional documentation
supporting their claim of a lower amount due or to cancel the additional amount due in its entirety. Work in
progress will continue until all protest options have expired or an agreement is reached. During this protest period,
CBP does not have a legal right to the importer/violator’s assets, and consequently CBP recognizes accounts
receivable only when the protest period has expired or an agreement is reached. For FY 2004, CBP had legal
right to collect $1.3 billion of receivables. In addition, there is an additional $1.58 billion representing records still
in the protest phase. CBP recognized as write-offs $136 million of assessments that DHS has statutory authority
to collect at year end, but has no future collection potential. Most of this amount represents fines, penalties, and
interest. CBP also estimated that trust funds are neither overstated nor understated as of September 30, 2004.

USCG collects various fines, penalties, and miscellaneous user fees from the public that are deposited to the
general fund miscellaneous receipts of the U.S. Treasury. USCG does not collect taxes or duties. As of
September 30, 2004, USCG had outstanding general fund receipt receivables due to the Treasury General Fund
of $14 million.




                                   See accompanying Independent Auditors’ Report.
                                         Required Supplementary Information




                                                                                                                   180
Segment Information (in millions):

                                                       9/30/2004                          9/30/2003

                                           Working    Revolving    Revolving   Working    Revolving   Revolving
                                            Capital      Fund:        Fund:     Capital      Fund:       Fund:
                                             Fund       Supply         Yard      Fund       Supply        Yard

   Fund Balance with Treasury                  $51         $32          $30        $90         $12         $51

   Accounts Receivable                           4            6           6          1          14           1

   Property, Plant and equipment                  -           -          55         28            -         55

   Other Assets                                   -          36          14         10          41         (45)

   Total Assets                                $55         $74         $105       $129         $67         $62


   Accounts Payable                             $3         $23           $3         $1         $13         ($3)

   Other Liabilities                              -           -          47          7            -          9

   Total Liabilities                             3           23          50          8          13           6


   Cumulative Results of Operations             52           51          55        121          54          56


   Total Liabilities and Net Position          $55         $74         $105       $129         $67         $62


   Total Costs                                 $77         $99          $79        $16          $3          $8


   Exchange Revenue                              8           96          78         26           7           7

   Excess of Revenues and Financing
   Sources over Costs                         ($69)        ($3)         ($1)       $10          $4         ($1)



The Department’s Working Capital Fund (WCF) is a fee-for-service entity that is fully reimbursable. The WCF
provides a variety of support services primarily to the Department’s components, and to other Federal entities.
The WCF operates on a revolving fund basis, whereby current-operating expenses charged to the customer
finance the cost of goods and services. The overall financial goal of the fund is to fully cover the operating
expenses while building a minimal capital improvement reserve.

The USCG Yard revolving fund (Yard Fund) finances the industrial operations at the USCG Yard in Curtis Bay,
Maryland and other USCG industrial sites. The USCG Supply revolving fund (Supply Fund) finances the
procurement of uniform clothing, commissary provisions at USCG dining facilities, general stores, technical
material, and fuel for vessels over 180 feet in length.



                                        See accompanying Independent Auditors’ Report.
                                              Required Supplementary Information




                                                                                                                  181
Risk Assumed Information

The Department has performed an analysis of the contingencies associated with the unearned premium reserve
for the National Flood Insurance Program (NFIP). That analysis shows unearned premium reserve is greater than
the combined values of (i) the estimated present value of unpaid expected losses and (ii) other operating
expenses associated with existing policy contracts. Therefore, the Department can state the unearned premium
reserve will be adequate to pay future losses and other operating expenses associated with existing policy
contracts. However, there is a remote chance that the volume of flood losses in the next year could exceed the
unearned premium reserve.

Our estimate of the present value of unpaid expected losses is based on a loss ratio (losses to premium) which is
then multiplied by the current unearned premium reserve. This loss ratio is derived from the NFIP actual historical
premium, historical losses, and historical mix of business, each adjusted to today’s level. More specifically,
historical premiums have been adjusted to reflect the premium levels of the present by making adjustments for
historical rate changes and historical changes in coverage amounts. Historical losses have been adjusted for
inflation, using inflation indexes such as the Consumer Price Index as well as chain price indexes, to reflect the
values that historical losses would settle as if they were settled today. In addition, the historical mix of business is
adjusted to reflect today’s mix of business. Examples of how the historical mix of business includes
proportionately fewer pre-firm policies versus post-firm policies are in force today. Also, there are proportionately
more preferred risk policies in force than in past years.




                                  See accompanying Independent Auditors’ Report.
                                        Required Supplementary Information




                                                                                                                  182
Required Supplementary Stewardship Information
(unaudited)
Heritage Assets

USCG and CBP maintain heritage assets, located in the United States, including the commonwealth of Puerto
Rico. Heritage assets are property, plant and equipment that have historical or national significance; cultural,
educational, or artistic importance; or significant architectural characteristics. Heritage assets are generally
expected to be preserved indefinitely. Multi-use heritage assets have more than one purpose such as an
operational purpose and historical purpose.

The following table summarizes activity related to Heritage Assets from October 1, 2003, to September 30, 2004
(in number of units).

                             USCG        CBP            Total

Beginning Balance          $19,619           4        19,623
Additions                       516           -           516
Withdrawals                   (205)           -         (205)


Ending Balance             $19,930           4        19,934

USCG possesses artifacts that can be divided into four general areas: ship’s equipment, lighthouse and other
aids-to-navigation items, military uniforms, and display models. The addition of artifacts is the result of gifts to
USCG.

    •   Ship’s equipment is generally acquired when the ship is decommissioned and includes small items such
        as sextants, ship’s clocks, wall plaques, steering wheels, bells, binnacles, engine order telegraphs, and
        ship’s name boards. Conditions will vary based upon use and age.
    •   Aids-to-navigation items include fog and buoy bells, lanterns, lamp changing apparatus, and lighthouse
        lenses. Buoy equipment is usually acquired when new technology renders the equipment obsolete.
        Classical lighthouse lenses can vary in condition. The condition is normally dependent on how long the
        item has been out of service. The lenses go to local museums or USCG bases as display items.
    •   Military uniforms are generally donated by retired USCG members and include clothing as well as insignia
        and accessories. Most clothing is in fair to good condition, particularly full dress items.
    •   Display models are mostly of USCG vessels and aircraft. These are often builders’ models. Display
        models are generally in very good condition. Builders’ models are acquired by USCG as part of the
        contracts with the ship or aircraft builders. The withdrawal of display models normally results from
        excessive wear.


                                  See accompanying Independent Auditors’ Report.
                                  Required Supplementary Stewardship Information




                                                                                                                  183
The USCG also has non-collection type heritage assets, such as sunken vessels and aircraft under the property
clause of the U.S. Constitution, Articles 95 and 96 of the International Law of the Sea Convention, and the
sovereign immunity provisions of Admiralty law. Despite the passage of time or the physical condition of these
assets, they remain Government-owned until the Congress of the United States formally declares them
abandoned. The USCG desires to retain custody of these assets to safeguard the remains of crew members who
were lost at sea, to prevent the unauthorized handling of explosives or ordnance which may be aboard, and to
preserve culturally valuable relics of the USCG’s long and rich tradition of service to our Nation in harm’s way.
Buildings and Structures - USCG does not acquire or retain heritage buildings and structures without an
operational use. Most real property, even if designated as historical, is acquired for operational use and is
transferred to other government agencies or public entities when no longer required for operations. Of the USCG
buildings and structures designated as heritage, including memorials, recreational areas and other historical
areas, over two-thirds are multi-use heritage. The remaining are historical lighthouses, which are no longer in use
and awaiting disposal; their related assets; and a gravesite. CBP also has four multi-use heritage assets located
in Puerto Rico. All multi-use heritage assets are reflected on the Consolidated Balance Sheet. Financial
information for multi-use heritage assets is presented in the principal statements and notes. Deferred
maintenance information for heritage assets and general PP&E is presented in the required supplementary
information.

Stewardship Investments

Stewardship investments are substantial investments made by the Federal government for the benefit of the
nation. When incurred, they are treated as expenses in calculating net cost, but they are separately reported as
Required Supplementary Stewardship Information (RSSI) to highlight the extent of investments that are made for
long-term benefit. Investments are not presented for FY 2003 since amounts reported in the Department’s
Consolidated Statement of Net Cost is not presented on a comparative basis.

                            Summary of Stewardship Investments (in millions)
                                                               Non-Federal            Human      Research and
Programs                                                           Property           Capital    Development
TSA– Airport Improvement Program                                              $287         $-                $-
TSA – Port Security Grant Program                                              218           -                -
TSA – Intercity Bus Security Grant Program                                      18           -                -
TSA – Highway Watch Cooperative Agreement                                         -         8                 -
TSA – Applied Research Projects                                                   -          -              30
TSA – Operation Safe Commerce                                                     -          -              50
EPR–National Fire Academy and Emergency Management
Institute                                                                         -        25                 -
SLGCP – First Responders Training Programs                                        -        23                 -
USCG – R&D                                                                        -          -              19
Total                                                                         $523        $56              $99


                                 See accompanying Independent Auditors’ Report.
                                 Required Supplementary Stewardship Information




                                                                                                             184
Investments in Non-federal Physical Property

These investments represent federally financed (but not federally owned) purchases, construction, or major
renovation of physical property owned by state and local governments, including major additions, alterations, and
replacements, the purchase of major equipment; and the purchase or improvement of other physical assets.
Based on a review of the Department’s programs, TSA has made significant investments in Non-federal Physical
Property.

        TSA

        Airport Improvement Program: TSA purchases and installs in-line explosive detection systems (EDS)
        equipment through a variety of funding mechanisms, including Congressionally-authorized Letters of Intent
        (LOIs). LOIs provide partial reimbursement to airports for facility modifications required to install in-line
        EDS solutions. TSA has issued eight LOIs for nine airports to provide for the facility modifications
        necessary to accommodate in-line EDS screening solutions at these airports.

        In-line systems also allow TSA to achieve maximum baggage throughput capacity. For example, a stand-
        alone EDS system can screen 180 bags per hour, while an in-line unit can screen 450 bags per hour. An
        added benefit is that installation of an in-line EDS system removes checked baggage screening operations
        from the airport lobby. However, in-line EDS systems are considerably more costly than stand-alone EDS.
        Many airports are not configured to accommodate installation of EDS technology in-line without extensive
        facility modifications. These funds are available only for physical modification of commercial service airports
        for the purpose of installing checked baggage explosive detection systems.

        Port Security Grant Program: This program provides grants to critical national seaports to support efforts
        in port security through enhanced facility and operational security. These grants contribute to important
        security upgrades such as surveillance equipment, access controls to restricted areas, communications
        equipment, and the construction of new command and control facilities.

        Intercity Bus Security Grant Program: This program improves security for intercity bus operators and
        passengers. TSA will award grants based on the following program categories:

    •   Vehicle specific security enhancements, such as, but not limited to, protecting or isolating the driver,
        alarms, security mirrors, etc.;
    •   Monitoring, tracking, and communication technologies for over-the-road buses;
    •   Implementation and operation of passenger and baggage screening programs at terminals and over-the
        road buses;
    •   Development of an effective security assessment/security plan that identifies critical security needs and
        vulnerabilities;
    •   Training for drivers, dispatchers, ticket agents, and other personnel in recognizing and responding to
        criminal attacks and terrorist threats, evacuation procedures, passenger screening procedures, and
        baggage inspection;
    •   Facility security enhancements (alteration/renovation – new vice replacement) to terminals, garages and
        facilities, including but not limited to: fencing, lighting, secured access, locking down of vehicles, and
        other general securing of bus yards/depots.


                                  See accompanying Independent Auditors’ Report.
                                  Required Supplementary Stewardship Information




                                                                                                                  185
Investments in Human Capital

These investments include expenses incurred for programs for education and training of the public that are
intended to increase or maintain national productive capacity and that produce outputs and outcomes that provide
evidence of maintaining or increasing national productive capacity. Based on a review of the Department’s
programs, TSA and EPR have made significant investments in Human Capital.

        TSA

        Highway Watch Cooperative Agreement: This cooperative agreement between the TSA and the
        American Trucking Associations (ATA) expands ATA's Highway Watch program, which trains highway
        professionals to identify and report safety and security situations on our Nation's roads. The program will
        provide training and communications infrastructure to prepare 400,000 transportation professionals to
        respond in the event they or their cargo are the target of a terrorist attack and to share valuable
        intelligence with TSA if they witness potential threats. The intelligence will allow Federal agencies and
        industry stakeholders to quickly move to prevent an attack or to immediately respond if an attack occurs.

        EPR

        National Fire Academy and Emergency Management Institute: These investments represent costs of
        training and professional development provided by EPR’s National Fire Academy and Emergency
        Management Institute. During FY 2004, training was provided to over 67,000 emergency management
        “first responders” at the state and local fire and emergency response community and its allied
        professionals. EPR links its investments in Human Capital to two outcomes:

        •   Percentage of respondents reporting that they are better prepared to deal with disasters and
            emergencies as a result of the training they received. EPR’s target in FY 2004 was 78% and they
            achieved 76.4%. EPR’s long term goal in FY 2010 is 90%.
        •   Percentage of counties in the US and territories with established Community Emergency
            Response Team (CERT) teams. EPR’s target in FY 2004 was 5% and they achieved 23.9%.

        SLGCP

       Training Programs: In FY 2004, SLGCP trained approximately 250,000 first responders to prevent and
       respond to acts of terrorism. Examples of training programs include:

       •    The Center for Domestic Preparedness (CDP) provided training for State, local, tribal, and parish
            emergency responders on all matters pertaining to terrorism to include Weapons of Mass Destruction.
       •    The National Domestic Preparedness Consortium (NDPC) is a partnership between SLGCP, three
            nationally recognized public universities, and the U.S. Department of Energy. The NDPC works with
            SLGCP to identify training needs for all emergency response disciplines responsible for WMD terrorism
            prevention, deterrence and incident response.




                                 See accompanying Independent Auditors’ Report.
                                 Required Supplementary Stewardship Information




                                                                                                              186
       •   Continuing and Emerging Training: SLGCP, in conjunction with Federal, State and local training
           providers as well as emergency response practitioners, identified emerging training needs based on
           continuous task analysis and performance assessment, exercise after action reports, and data reported
           in State and Urban Area homeland security strategies.

Investments in Research and Development

These investments represent expenses incurred to support the search for new or refined knowledge and ideas
and for the application or use of such knowledge and ideas for the development of new or improved products and
processes with the expectation of maintaining or increasing national productive capacity or yielding other future
benefits. Based on a review of the Department’s programs, TSA and the USCG have made significant
investments in Research and Development.

       TSA

       Applied Research Projects: TSA funds applied research projects and grants to develop advance security
       technology equipment and systems. Projects include partnerships with George Mason University, the
       Regional Maritime Security Coalition, and the Federal Aviation Administration. These applied research
       projects include human factors research intended to enhance screener capabilities, improve person-
       machine performance, and increase human system effectiveness; ongoing certification testing of EDS and
       explosive trace detection (ETD) technology; and infrastructure protection research related to use
       biometrics for access controls for passenger tracking.

       Operation Safe Commerce: Operation Safe Commerce is a pilot program that brings together private
       business, ports, local, state, and Federal representatives to analyze current security procedures for cargo
       entering the country. The ports of Seattle and Tacoma, Los Angeles and Long Beach, and the Port
       Authority of New York/New Jersey are participating in the pilot program. The program will function like a
       venture capital fund to utilize existing technology to monitor the movement and integrity of containers
       through the supply chain. Selected ports will test new technologies and initiatives in selected supply
       chains. The new technologies will look at improving security during the process of stuffing and
       deconsolidating containers, physically securing and monitoring containers as they are transported through
       the supply chain, and exchanging timely and reliable communication.

       USCG

       The USCG’s Research and Development Program seeks to research, develop, test and evaluate
       technologies, materials, and human factors directly related to improving the performance of the Coast
       Guard’s missions. During FY 2004, the USCG collaborated with 35 external partners to demonstrate
       progress towards closing USCG mission performance gaps:

       •   Maritime Safety – Maritime Safety research supports the Coast Guard’s efforts by enhancing
           capabilities toward eliminating deaths, injuries, and property damage associated with maritime
           transportation, fishing, and recreational boating.




                                See accompanying Independent Auditors’ Report.
                                Required Supplementary Stewardship Information




                                                                                                            187
•   Maritime Mobility – This research supports the enhancement of capabilities required to perform the
    Aids to Navigation and Ice Operations missions.

•   Marine Environmental Protection – This program focuses on elimination of the influx of aquatic
    nuisance species (ANS) and prevention and response strategies to major oil and hazardous
    substance discharges.

•   Homeland Security – Homeland Security research supports enhancements in the enforcement of laws
    and treaties and security of the Nation’s ports, waterways, and coastal zone. The two major investment
    areas within this R&D program include detection, identification and classification of maritime threats and
    the improvement of interdiction capabilities.

•   Technology Investment – Technology Investment research supports the Coast Guard’s efforts
    towards DHS Strategic Goal of Organizational Excellence. The primary purpose of this research is to
    increase performance capabilities and to free resources to perform other high priority functions. The
    two primary areas of focus within this program are Technology Awareness and Assessment and
    Command Center Concept Exploration.




                          See accompanying Independent Auditors’ Report.
                          Required Supplementary Stewardship Information




                                                                                                        188
Other Accompanying Information (unaudited)
Net Costs of DHS Sub-organizations by Strategic Goals (in millions)

                                                                                                       Organizational
                                Awareness   Prevention   Protection   Response   Recovery    Service      Excellence    TOTAL
BTS Directorate:
  BTS HQ                               $-          $9           $1          $1        $-         $-               $-       $11
  CBP                                   -        5,379            -          -           -      413                 -     5,792
  ICE                                  58        3,155         737           -           -         -                -     3,950
  TSA                                 151        2,473       1,018          37                                   113      3,792
  SLGCP                                 -            -       1,846           -           -         -                -     1,846
  FLE                                  22          88           85           -           -         -               1       196
Subtotal – BTS Directorate            231       11,104       3,687          38           -      413              114     15,587

EPR Directorate                         -            -       1,592       1,125      3,271          -                -     5,988
IAIP Directorate                      140            -         357           -           -         -                -      497

                                       66         439          126         100        24           -                -      755
S&T Directorate
USCG                                  560        4,840       1,564         975        113       108                 -     8,160
USSS                                    -            -       1,368           -           -         -                -     1,368
CIS                                     -          99             -          -           -      349                 -      448
Departmental Operations/Other           -            -            -          -           -         -             325       325
TOTAL DHS                            $997      $16,482      $8,694      $2,238     $3,408      $870             $439    $33,128




                                        See accompanying Independent Auditors’ Report.
                                               Other Accompanying Information




                                                                                                                  189
